<html>
<title> - THE GOOD FRIDAY AGREEMENT AT TWENTY YEARS: ACHIEVEMENTS AND UNFINISHED BUSINESS</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






                      THE GOOD FRIDAY AGREEMENT AT
                      TWENTY YEARS: ACHIEVEMENTS
                        AND UNFINISHED BUSINESS

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2018

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-2-2]








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                       Available via www.csce.gov


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-384 PDF                     WASHINGTON : 2018 


























            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,      ROGER F. WICKER, Mississippi,
Co-Chairman                              Chairman
ALCEE L. HASTINGS, Florida             BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama            JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas              CORY GARDNER, Colorado
STEVE COHEN, Tennessee                 MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina        JEANNE SHAHEEN, New Hampshire 
RANDY HULTGREN, Illinois              THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas             TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                 SHELDON WHITEHOUSE, Rhode Island
          

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                      THE GOOD FRIDAY AGREEMENT AT
                       TWENTY YEARS: ACHIEVEMENTS
                        AND UNFINISHED BUSINESS

                              ----------                              

                             March 22, 2018
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Co-Chairman, Commission on 
  Security and Cooperation in Europe.............................     1

Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3

                                 MEMBER

Hon. Brendan Boyle, a Member of Congress from the State of 
  Pennsylvania (D-13)............................................     4

                               WITNESSES

Brian Gormally, Director, Committee on the Administration of 
  Justice........................................................     5

Judge James F. McKay III, President, Ancient Order of Hibernians.     9

Mark Thompson, Director, Relatives for Justice...................    12

                                APPENDIX

Prepared statement of Hon. Christopher H. Smith..................    29

Prepared statement of Brian Gormally.............................    31

Prepared statement of Judge James F. McKay III...................    36

Prepared statement of Mark Thompson..............................    42

Prepared statement of Geraldine Finucane.........................    49

 
                      THE GOOD FRIDAY AGREEMENT AT
                       TWENTY YEARS: ACHIEVEMENTS
                        AND UNFINISHED BUSINESS

                              ----------                              


                             March 22, 2018

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 9:30 a.m. in Room 2200, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Co-Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present:  Hon. Christopher H. Smith, Co-
Chairman, Commission on Security and Cooperation in Europe; and 
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
and Cooperation in Europe.
    Member present:  Hon. Brendan Boyle, a Member of Congress 
from the State of Pennsylvania (D-13).
    Witnesses present:  Brian Gormally, Director, Committee on 
the Administration of Justice; Judge James F. McKay III, 
President, Ancient Order of Hibernians; and Mark Thompson, 
Director, Relatives for Justice.

HON. CHRISTOPHER H. SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And good 
afternoon to everybody. I want to begin by welcoming our 
distinguished witnesses and everyone else in the room joining 
us for our hearing on the achievements, with a special focus on 
the unfinished business, of the April 10th, 1998 Good Friday 
Agreement. As most of you know so well, the signing of the Good 
Friday Agreement 20 years ago was truly historic, 
extraordinarily difficult to achieve, a remarkable framework 
for peace and the hope for beginning of reconciliation.
    In its most important provisions, the agreement launched a 
series of challenging protocols, by which the leaders of the 
nationalist and unionist communities in Northern Ireland agreed 
to a better governance, and peaceful resolution of differences. 
Prisoner releases, new government structures, British 
demilitarization of the North, the decommissioning of 
paramilitary weapons and systemic police reform were achieved 
to varying degrees over the last 20 years. In the 30 years 
between 1969 to 1998, approximately 3,500 people were killed in 
political violence, while in the 20 years since the Good Friday 
Agreement fewer than 100 have lost their lives.
    I have personally chaired 15, now 16 counting this one, 
congressional hearings and markups of legislation with a 
special focus on police reform and the need to establish a 
public, independent judicial inquiry into the state-sponsored 
collusion in the murder of human rights attorney and activist 
Patrick Finucane and others who were gunned down--or, in the 
case of Rosemary Nelson, killed by a bomb. I also offered 
legislation that was adopted by the House of Representatives 
that put the House on record condemning violence and promoting 
peace and justice in Northern Ireland and police reform. And I 
just recently introduced H. Res. 777 which, again, calls for a 
recommittal of the United States, the British, and all 
parties--including the Republic of Ireland--to the peace 
process.
    The most contentious of my amendments over the year, one of 
which became law, resulted in suspending all U.S. support for 
and exchanges with the British police force in Northern Ireland 
and the Royal Ulster Constabulary (RUC) until standards were 
met to vet RUC officers who engaged in human rights abuses. 
Those new standards were set and eventually then-President Bush 
was able to certify, in accordance with my law, that human 
rights principles were part of police training going forward, 
both in the RUC and in its replacement police force, the Police 
Force of Northern Ireland, or PSNI. With the improvements, the 
police exchanges were resumed.
    That is the good news. But as the 20th anniversary of the 
Good Friday Agreement milestone approaches, serious attention 
and effort to be paid to achieving the dream. First and 
foremost, the government in Northern Ireland seems unable to 
consistently function or even constitute itself. Also, after 20 
years, despite many obvious successes and benefits of the Good 
Friday Agreement, and although no one wants to scrap it--and 
who would want to return to the killing--the reconciliation to 
some extent has stalled. One of the reasons is that the long-
standing cases have not been resolved.
    You know, we got testimony on numerous occasions--Geraldine 
Finucane and her son Michael have been here to testify. She has 
submitted testimony for today's hearing. And she points out, 
and I quote in part, ``My family has campaigned for a public 
inquiry into Pat's murder, but the British Government has 
repeatedly failed to establish one. Instead, they have 
instigated one confined investigation after another, claiming 
to want to examine the facts or get to the truth, but always in 
a process conducted away from public view. One cannot but 
wonder at the pointlessness of conducting investigation after 
investigation that are doomed to fail, no matter how forceful 
the conclusions, because they lack the transparency required to 
attain public confidence.''
    As Geraldine points out further in her testimony, the 1998 
agreement represent a new beginning that would mark a point 
with the new future for everyone in Ireland, north and south, 
could be launched. What was not acknowledged or appreciated, 
however, was the fact that moving forward also meant dealing 
with the past. And of course, that is something that this 
commission and my Subcommittee on Human Rights has tried to do 
for the last 20-plus years.
    I would like to just point out too, in testimony that's 
been provided to us by the Committee on the Administration of 
Justice--again, a very important quote from them, ``In a highly 
disturbing development, and notwithstanding the reality that 
only a small number of legacy cases relate to British soldiers, 
a recent report of the Commons Defense Select Committee called 
for the enactment of a statute of limitations covering all 
troubles related to incidents involving members of the armed 
forces. This concept effectively means a selective amnesty for 
crimes committed by British soldiers.''
    The committee also suggested that it be extended to the RUC 
and other security force members. This position is, of course, 
completely contrary to human rights standards and, if it were 
enacted, would probably be found unlawful by the courts. 
Nevertheless, the U.K. Government has said that it will include 
the proposed in a forthcoming consultation on the 
implementation of the Stormont House Agreement. That is a 
dangerous, I think, backtracking on the part of the British 
Government. And hopefully they will cease and desist in moving 
in that direction.
    Without objection, my full statement will be made a part of 
the record. Geraldine Finucane's statement will be made part of 
the record. We're joined by the ranking member of the Helsinki 
Commission, Senator Ben Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, first, let me thank Chairman Smith for 
convening this hearing. There's a lot of lessons to be learned 
in regard to the Good Friday Agreement. And it's particularly 
appropriate that the Helsinki Commission would hold this 
hearing on this 20th anniversary.
    And I want to welcome our panelists, our guests, our 
witnesses for their testimony. And I'm going to apologize 
early. As you know, there's been an agreement reached on the 
budget and we have a Finance Committee session on this in 20 
minutes. So I apologize for having to leave. But I wanted to be 
here.
    I was in Belfast, as I know Chairman Smith was in Belfast, 
during the troubled times. And what I saw in the early 1990s in 
Belfast was a segregated city that I have never seen the likes 
of which, where it was literally not safe to cross the street 
between the Protestants and the Catholics. The problems--and 
that's what it was called, the Troubles--in Northern Ireland 
lasted 30 years of active conflict, where 3,500 people lost 
their lives. So we celebrated a framework for peace, the Good 
Friday Agreements, the Belfast Agreements, because it set us up 
with a way to end this bloody conflict. And it represented, I 
think, the best of the Helsinki principles for using democratic 
process for peaceful resolution of a conflict.
    But as Mr. Smith has already laid out, there are still 
problems. Twenty years later we still have problems. Coming to 
terms with the past has not been easy. Providing justice for 
the victims has not been easy. And now we have Brexit, which 
changes the open borders between Ireland and the U.K., which 
very much complicates the implementation of the peace 
agreements. And we have a lack of developed government from 
Northern Ireland that can deal with a lot of these issues. So I 
do believe returning to Helsinki principles is particularly 
important to make sure that the progress that was made 20 years 
ago is not lost. And therefore, I think this hearing is 
particularly important. And I wanted to stop by and just 
reinforce the work that's being done here and to thank our 
witnesses for being here.
    Mr. Smith. I want to thank my good friend and colleague Ben 
Cardin. We have worked side-by-side for decades, including on 
Northern Ireland. So I want to thank you for taking the time 
out and hope you're not late to your meeting. [Laughs.] Thank 
you.
    I'd like to yield to Mr. Boyle.

HON. BRENDAN BOYLE, DEMOCRATIC REPRESENTATIVE FOR THE STATE OF 
                          PENNSYLVANIA

    Mr. Boyle. Thank you. I'd like to thank Congressman Smith 
and Senator Cardin.
    As a member of the Foreign Affairs Committee, some know, I 
for quite some time pushed to have a hearing on the 
consequences of Brexit, which we were able to have actually in 
this hearing room, because I am very concerned that this 
current Brexit process would yield the collateral damage of the 
Northern Ireland peace process which so many here in the United 
States and in Ireland and in the U.K. worked hard to create and 
foster.
    Recently--let me take a step back. For about 19\1/2\ years 
of the last 20, the Good Friday Agreement has been accepted as 
the accomplishment in which we can all take pride, and the 
unquestioned gold standard moving forward. That was and is the 
position of Democrats and the Republicans here on Capitol Hill, 
the position of all of the political parties in Dublin, and was 
the position of all the political parties in the U.K. Very 
recently some in London have made comments about the Good 
Friday Agreement to the effect of, ``this doesn't need to last, 
wasn't meant to be set up forever.'' That is a very disturbing 
backsliding, the likes of which we have not heard for the 
previous 19\1/2\ years. Former Prime Minister John Major was 
right when he spoke out recently against such dangerous 
rhetoric.
    So as we gather here to observe and celebrate the 20th 
anniversary of the Good Friday Agreement, we should be very 
loud in repeating the successes of this agreement. No, it's not 
perfect. I'm very disappointed about some of the aspects that 
have not yet been implemented. And I'm sure we're going to be 
talking about those. But to all of a sudden suggest that the 
Good Friday Agreement can just be ripped up and thrown out, as 
some irresponsible voices have said, is very disturbing. And I 
think that I speak for Democrats and Republicans on the Foreign 
Affairs Committee and, indeed, in Congress, that there is 
absolutely zero support in Washington, DC. for going back to 
the days of pre-Good Friday Agreement.
    So with that, I thank you for your long-standing interest 
and activism on this issue, Chairman Smith. And happy to yield 
back.
    Mr. Smith. Well, we're very grateful to have a great, 
distinguished panel with us this morning, beginning with Brian 
Gormally, who is the director of the Committee on the 
Administration of Justice (CAJ), a leading human rights 
advocacy organization in Northern Ireland. For over a decade, 
before he was an independent consultant specializing in 
justice, human rights, and equality issues, and has published 
and presented extensively on these issues--particularly on 
politically motivated prisoner release, victims of terrorism, 
dealing with the past and restorative justice. He has been 
involved in international peace-related work in South Africa, 
Israel, the Basque country, and Italy, and more recently in 
Colombia.
    We'll then hear from Judge James F. McKay III, who is the 
national president of the Ancient Order of Hibernians [AOH], 
founded in 1836. The AOH is America's oldest Irish Catholic 
fraternal organization, with more than 80,000 members and has 
been active in supporting the peace process in Northern 
Ireland. Long active in Irish affairs, Judge McKay is an 
honorary counsel of Ireland in Louisiana, and serves as chief 
judge of Louisiana's 4th Circuit Court of Appeals.
    We'll then hear from Mark Thompson, who is founder and 
member and CEO of Relatives for Justice, a human rights 
advocacy and support organization for survivors of the conflict 
in Northern Ireland. Mr. Thompson has decades of experience in 
proactively holding those responsible to account and ensuring 
that the needs and experiences of the victims of the conflict 
are identified and championed. He has made representation on 
families' behalf--at U.S. Congress, the United Nations, 
European Parliament, European Court, as well as to governments 
in both Britain and in Ireland.
    Mr. Gormally, the floor is yours.

 BRIAN GORMALLY, DIRECTOR, COMMITTEE ON THE ADMINISTRATION OF 
                            JUSTICE

    Mr. Gormally. Thank you very much, Mr. Chairman. And thank 
you for the invitation to give testimony to this commission, 
which is certainly famous in Ireland for keeping the issues 
about the peace and human rights in Ireland alive in this 
place. And we're very grateful for that.
    We're honored to be giving evidence to this commission on 
the occasion of the 20th anniversary of the Belfast Good Friday 
Agreement. As has already been said from the podium, this 
agreement has given us 20 years of relative peace. Following a 
disastrous 30-year violent political conflict, that is 
something worthy of celebration. CAJ is an organization devoted 
to the protection and promotion of human rights. Since we know 
that violent conflict always involves a bonfire of human 
rights, protecting and promoting the peace settlement is our 
top priority.
    The peace agreement was designed to create a political and 
geographical space which could be shared by those with 
different national aspirations and allegiances. To do this, it 
recognized the right of the whole people of the island of 
Ireland to self-determination, and the right of the people of 
the North to vote to join a united Ireland. It declared that it 
was the birthright of those born in Northern Ireland to be 
Irish or British or both and established a form of government 
that would mean that one community could not dominate the 
other. To underpin all of that, however, was an infrastructure 
of proposed legislation and institutions which would guarantee 
that the Northern Ireland of the future would be a rights-based 
society.
    The commitments to protecting human rights in legislation 
included a promise to incorporate the European Convention of 
Human Rights into domestic law, a bill of rights for Northern 
Ireland, including additional rights, a Single Equality Act, an 
Irish Language Act, and a duty to be placed on public 
authorities to consider the equality impact of any policy. In 
addition, a series of acts will be required to implement the 
recommendations of the Patten Commission on a thorough reform 
of policing. Institutionally, the Agreement established a new 
Human Rights Commission with extensive investigative and 
legislative oversight power, and an equality commission to 
enforce the public equality duty.
    The reality is that while huge advances have been made, and 
society in the North is now very different than that of 20 
years ago, there are outstanding commitments and unfilled 
promises which weaken the peace process, which the written 
testimony I've given to the commission gives more details 
about.
    Let me just look briefly at the question of policing. 
Policing is particularly important in establishing trust in 
institutions of society and in the rule of law. Huge progress 
has been made. In many respects, the police service of Northern 
Ireland tries to live up to the Patten Report's statement that 
the purpose of policing should be the protection and 
vindication of the human rights of all. There should be no 
conflict between human rights and policing. Policing means 
protecting human rights.
    Our systems of accountability and oversight, especially the 
independent ombudsman with its own investigators, should be a 
model for democratic policing throughout the world. However, 
areas of concern remain. The unaccountable and secret security 
service, or MI5, has primacy for national security intelligence 
policing in the North, which is a huge gap in accountability. 
The Police Service of Northern Ireland (PSNI) is also obliged 
to support the activities of the U.K. border force and 
immigration enforcement, which have a history of human rights 
abuses and no local accountability. We also believe that 
there's prima facie evidence of the police unlawfully using 
counterterrorism powers in immigration enforcement.
    Elements of the police are also responsible for some of the 
delay and obfuscation in dealing with the past, which we'll go 
into more detail later. The control of intelligence material by 
officers who served in the RUC Special Branch, its over-
classification as top secret, and the willful failure to 
expedite the production of evidence to inquests and courts are 
all continuing problems. It's arguable, however, that the main 
area in which continuing human rights violations undermine 
society and threaten the peace process is one not properly 
covered by the peace agreement. That is the continuing search 
for impunity by the U.K. State for the action of its agents 
during the conflict.
    Combating impunity is one of the foremost preoccupations of 
human rights activists throughout the world. The reasoning is 
simple: If impunity persists, there can be no justice or truth 
for victims, future perpetrators will be emboldened, and 
confidence in the rule of law weakened. These outcomes are 
exactly being produced with regard to continuing impunity for 
those who violated human rights during the conflict in Ireland. 
Victims are dying without seeing justice, or even serious 
attempts to achieve it. Torture and other crimes have been 
carried out by U.K. security forces in other parts of the 
world, and faith in the rule of law is falling away.
    The delays, obfuscations, and squeezing of resources by the 
U.K. authorities and local allies, which have been detailed 
year after year, can only be understood as designed to maintain 
an apparatus of impunity. The insistence of security agencies 
and ministers having a national security veto over what 
information is published is an insistence on impunity for their 
agents. That's why combating impunity is CAJ's top priority.
    In August 2001, the European Court of Human Rights gave 
judgment in a number of cases detailing the investigative duty 
that comes under the ``Right to Life.'' To this day, the U.K. 
has still not discharged its obligations. And the cases remain 
under the supervision of the Committee of Ministers of the 
Council of Europe, the body which oversees implementation of 
the judgments of the court.
    In its decision of September the 21st, 2017, the Committee 
of Ministers noted with deep concern the lack of progress on 
implementing the Stormont House Agreement, which provides for 
four mechanisms to deal with the past, and that legacy inquests 
have not been funded. The exasperation of the committee with 
the procrastination of the U.K. Government is clear. More 
important is the hurt of the victim still denied justice, and 
the corrosive impact of the lack of institutions to deal with 
the past on the present trust in the institutions of state and 
the rule of law.
    There are some signs of progress in the courts. Exactly a 
fortnight ago today the High Court in Belfast held that the 
decision of the then-First Minister Arlene Foster to prevent a 
request going the British Government to fund legacy inquests 
was unlawful. The so-called ``hooded men'' case, in which CAJ 
represents the daughter of one of the 14 men caught during 1971 
and who died because of it, is being fast-tracked by the court 
of appeal, with the intention of getting a swift judgment from 
the Supreme Court in the application and investigative 
obligation in both right to life and torture cases.
    However, there's been a negative development in 
jurisprudence. The judgment in the Irish application for the 
revision of the European court of human rights judgment in 
Ireland versus the U.K.--which in 1978 made the disastrous 
distinction between torture and inhuman and degrading treatment 
in respect of the hooded men--was delivered on the morning of 
Tuesday the 20th of March. This is a narrow and largely 
technical decision by the European Court of Human Rights, but 
it is hugely disappointing in that it leaves the unjustified 
distinction between ``torture'' and ``inhuman and degrading 
treatment'' intact. However, we should remember that the 
Article 3 prohibition on all such treatment, whatever the 
definition, is absolute. Those who have sought to justify 
brutal interrogation methods on the basis of the 1978 judgment 
are still wrong in law and barbaric in their practice.
    For the last four years we've been expecting the U.K. 
Government to publish legislation to implement the Stormont 
House Agreement. We're now told the text will be published 
after Easter consultation. It remains to be seen whether this 
will be a good faith attempt to implement the agreement in a 
human-rights-compliant manner, or another way of delaying and 
denying truth with a blanket national security veto on 
information to be released to families. The Chair has already 
read the piece of our evidence about the so-called statute of 
limitation called for by certain elements in the British 
establishment.
    So let me move now onto the fact that it's impossible to 
continue a discussion on the status of the Good Friday 
Agreement without mentioning Brexit, the decision by the U.K. 
to leave the European Union. This will have a profound effect 
on the legal and constitutional underpinning of the present 
jurisdiction of Northern Ireland, its relations with the Irish 
State, and U.K.-Ireland bilateral relations. The U.K. and 
Ireland's common membership of the EU was an assumption in the 
Good Friday Agreement, and the U.K.'s adherence to EU law 
regulates the powers and legislative operations of the involved 
institutions.
    The equal rights of Irish and British citizens, a principle 
of the Good Friday Agreement, in great part relies on the equal 
rights of both as having EU citizenship. The lack of 
significant border regulation is largely due to common 
membership of the EU, North and South, as well as the improved 
security situation. The U.K.'s clamp down on immigration after 
Brexit may turn Northern Ireland into one big border with 
enhanced enforcement and serial human rights abuses. Many 
equality and anti-discrimination provisions in Northern 
Ireland, which have particular importance in a divided society, 
rely on EU law.
    Furthermore, the decision to leave the EU based on a U.K. 
referendum, in which Northern Ireland as well as Scotland voted 
to stay, is an affront to the principle of self-determination 
of the Irish people, which is a foundation stone of the 
agreement. All of these impacts could have a destabilizing 
effect on the constitutional, political, and legal settlement 
that, in the main, ended the political conflict which 
devastated the people of Northern Ireland and gravely affected 
those in the rest of the U.K. and Ireland.
    While it's unlikely that any one particular effect of 
leaving the EU would destroy the peace settlement, the 
cumulative impact could begin to unravel it. In particular, any 
diminution in the protection of rights of the people living on 
the island could reduce trust in the Good Friday institutions. 
And any unraveling of the settlement would be disastrous for 
human rights. A continuing preoccupation of CAJ will, 
therefore, be the protection of the integrity of the peace 
settlement, and the various agreements that make it up.
    We would like to commend this commission for holding this 
hearing and to support the resolution that has been put to 
Congress. The Good Friday Agreement is one of 20 years of 
relative peace, but the goal of making that peace permanent, 
based as it must be on a rights-based society, remains to be 
achieved.
    Thank you, Chairman.
    Mr. Smith. Thank you very much for your testimony. Without 
objection, your full statement will be made a part of the 
record. And as usual, thank you--it's very thorough and, as 
always, full of recommendations.
    I'd like to now yield to Judge McKay such time as he may 
consume.

     JUDGE JAMES F. MCKAY III, PRESIDENT, ANCIENT ORDER OF 
                           HIBERNIANS

    Judge McKay. Good morning Mr. Chairman and distinguished 
members of the commission. It is an honor to be here today to 
discuss the 20th anniversary of the Good Friday Agreement. In 
addition to my day job as chief judge of the Louisiana 4th 
Circuit Court of Appeal, I also serve as honorary counsel for 
Ireland to the State of Louisiana, as well as national 
president of the Ancient Order of Hibernians (AOH). It is in 
that role as president of the AOH that I testify before you 
today.
    The Ancient Order of Hibernians is the oldest Irish 
Catholic fraternal organization in the United States and 
originally founded in 1836. And along with our sister 
organization, the Ladies' Ancient Order, we have almost 80,000 
members throughout the United States. And not just in places 
like Boston, New York, and Philadelphia, but in less obvious 
places as well, such as Butte, Montana, Los Angles, California, 
and in my hometown of New Orleans, Louisiana. There are an 
estimated 33 million people in the United States who claim 
Irish heritage.
    The world figure is estimated to be around almost 70 
million. That means that almost at least half the diaspora 
reside here in the United States. In fact, we often hear it 
said around St. Patrick's Day that there are only two kinds of 
people in the world--the Irish, and those who wish they were. 
And even though that's just a joke, there is no question that 
for a country roughly the size of the State of West Virginia, 
Americans do pay a great deal of attention to the Irish. And it 
is this connection between America and Ireland that 
organizations like the AOH continue to celebrate and foster.
    Twenty years ago, a document that has come to be known as 
the Good Friday Agreement was signed by political 
representatives of the people of Northern Ireland and 
representatives of the British and Irish Governments. This 
historic agreement brought an end to the violence of the 
Troubles and introduced peace to a conflict where over 3,500 
people had lost their lives in civil unrest.
    One of the tenets of the AOH is a quote from Padrig Pearse 
which states, ``Ireland unfree shall never be at peace.'' The 
Good Friday Agreement delivered peace only because it also 
promised freedom. The Good Friday Agreement promised freedom 
and reconciliation based on a parity of esteem for both sides 
of the divide. The successes of the agreement to date have been 
achieved through hard work, the commitment of members of all 
the local communities who suffered tragedies during the 
Troubles, and by requiring considerable courage from political 
leaders who faced hard consequences from their constituencies 
in making any concessions. What so many of us can all agree on, 
the important role of the United States in securing this 
historic deal.
    The relationship between America and Ireland goes back to 
even before there was a United States. It was Ireland that 
first send aid to struggling American colonies seeking their 
own independence. George Washington once described Ireland as, 
``thou friend of my country in my country's most friendless 
days.'' While having Americans insert themselves into the 
politics and policies of Ireland was nothing new at the time, 
the commitment, leadership, and direct engagement shown by the 
U.S. officials during this period was unprecedented.
    In fact, I am not entirely sure that we would have had a 
Good Friday Agreement had it not been for the engagement of 
American officials like President Bill Clinton, Senator George 
Mitchell, Senator Ted Kennedy, Congressman Richard Neal, and 
Congressman Peter King, just to name a few. They refused to 
give up on a deal when tensions became too high or certain 
groups walked away from the negotiating table and ensured that 
the ``Peace and Reconciliation Agreement'' could be born.
    The goals of the Good Friday Agreement were meant to give 
the future back to the people of Northern Ireland, unshackled 
from the legacy of the past. For the first time in a very long 
time, simple things like everyday grocery shopping, worshiping 
on Sundays, or taking family outings on holidays could be 
conducted without fear or trepidation. And during the past 20 
years, a generation has grown up in the North without knowing 
the fears and anxieties that constant violence inflicts upon 
communities.
    Further, we have come to learn that peace brings 
prosperity. The economy of the North has made significant 
advances since the Troubles. And despite setbacks from the 
global recession, the North of Ireland has seen a growth in 
tourism, a growth in foreign direct investment, and a 
commitment to increasing the private sector. On a personal 
note, it reminds me of the civil rights movement in our 
country. During those turbulent times, many sought delay and 
postponement of the initiatives. But because of their moral 
weight, they were achieved. Just as in Ireland, this is an 
ongoing mission and it must be worked at every day if success 
is to continue.
    So, while we recognize the great strides that have been 
made in the last 20 years in all sectors, final peace has not 
yet been achieved in the North. We praise the efforts of 
Senator George Mitchell and other subsequent envoys of the U.S. 
to Northern Ireland. And we praise the work of all the 
politicians on the ground who made the Good Friday Agreement a 
reality. However, the GFA was merely the beginning of a process 
aimed at creating a fair and equitable society for all the 
communities of the North.
    At an event just last week at the Library of Congress to 
commemorate the 20th anniversary of the Good Friday Agreement 
in a pre-recorded message for attendees, President Clinton told 
the audience that there is still significant work to be done in 
the North. He challenged us to seize this moment of memory and 
move into the future together. The AOH agrees with President 
Clinton. We believe the time is now for the United States to 
recommit itself to the principles of the Good Friday Agreement. 
In fact, the AOH has repeatedly requested that this 
administration fulfill its commitment to appoint a special 
envoy to Northern Ireland immediately.
    This is an extremely critical time for the North. As 
political parties continue to attempt to form a sustainable 
government, while addressing the fears and anxieties of Brexit, 
we believe that America must reaffirm through the presence of a 
special envoy that the peace and well being of the community of 
the North is still a priority of the United States and America 
is willing to walk with the representative of those communities 
on the road to a lasting peace.
    I believe that it is important note that the AOH in America 
has been, and will be in the future, working for the 
unification of Ireland. The preamble of our AOH Constitution 
states that the purpose of our organization is to promote 
``friendship, unity, and Christian charity, and to aid and 
advance by all legitimate means the aspirations and endeavors 
of the Irish people for complete and absolute independence, 
providing peace and unity for all of Ireland.''
    That being said, we understand that this cannot be 
accomplished overnight, and complete independence can only be 
achieved when a majority of the people on both sides of the 
border wish it to happen.
    For over 30 years, the AOH has been engaged with a variety 
of organizations in the North and poured hundreds of thousands 
of dollars into organizations that provide assistance for 
charities and agencies to aid and advance, by all legitimate 
means, the aspirations and endeavors of the Irish people. We in 
our own way continue on the efforts of successive U.S. envoys 
to bridge the gaps of ignorance and mistrust. And our donations 
sent to Northern Ireland each year go to a variety of cross-
appeal organizations.
    Additionally, the AOH supports the promotion of the Irish 
language in Ireland, which has garnered much media attention as 
a cause, but not the only one, for the failure to restore the 
power-sharing government. It is incredulous that anyone would 
have an objection to the Irish language being taught and used 
in Ireland. We note that the acts supporting and promoting 
indigenous languages in other parts of the United Kingdom, 
specifically Scotland and Wales, have long been enacted. To 
those who ask if the study of language should be a barrier to 
forming a government we respond that if something as benign as 
the promotion of the Irish language cannot be resolved, then 
what hope is there to address more contentious issues? We 
believe that the issues of identity should always be on the 
table for discussion and can be addressed better if an 
impartial outsider, like an American envoy, chairs these 
discussions.
    One of the many groups that we support monetarily on an 
annual basis is Relatives for Justice, who are certainly here 
with us today. This organization works for truth and justice 
for victims and survivors of the victims during the Troubles. 
Utilizing a third party--in this case, the U.S. envoy again--to 
help address some of these legacy issues is critical to finding 
a path forward. For example, the Stormont House Agreement was 
signed in 2014 and provides a comprehensive framework to 
address legacy issues and needs to be fully implemented. The 
AOH believes that many legacy issues should be handled with a 
third-party negotiator involved, to give credibility to the 
impartiality and transparency of the process.
    In addition to addressing legacy issues, the people of 
Northern Ireland are now forced to deal with concerns 
surrounding Brexit and how the North may be impacted. Today the 
local people of Northern Ireland can cross the border multiple 
times in any given day for work, for school, for shopping, for 
life. The dissolution of the U.K.'s membership in the European 
Union has once again raised the specter of a ``hard border'' in 
which all affected communities are in rare unanimity.
    To avoid this disastrous consequence of a hard border in 
Ireland, compromises will be needed by all parties. The AOH 
believes it's yet another excellent reason to appoint a special 
envoy who can impartially facilitate finding common ground to 
begin and exhibit trust in carving out the future. History has 
proven the majority of today can be the minority of tomorrow. 
And the blanket of protections enacted today will equally cover 
those who may feel they do not currently need them. There is no 
question that Senator Mitchell understood this fact 20 years 
ago, which is why it is so crucial to find an equitable path 
for all parties.
    Certainly, one of the most respected members of government 
from the nationalist side was my friend Martin McGuinness. In 
fact, I don't think most people recognized his stature until 
after his death. What he believed in can be reduced to four 
basic principles: those of self-determination, respect, 
equality, and truth. The AOH in America fully supports these 
espoused principles and believe that they are in keeping with 
the best values of the organization--truth, respect, equality, 
and self-determination.
    God only knows the future of Ireland. And we can only 
continue to do what we have done in the past. And that is to 
support the efforts and the principles of the Good Friday 
Agreement and continue to spread the word to all who will 
listen of the achievements that have been made to this date.
    Thank you, Chairman.
    Mr. Smith. Judge, thank you very much for your very strong 
and eloquent statement and recommendations.
    I'd like to now yield to Mr. Thompson.

         MARK THOMPSON, DIRECTOR, RELATIVES FOR JUSTICE

    Mr. Thompson. Thank you, Mr. Chairman. I'd like to take 
this opportunity to thank this very distinguished commission 
that has held quite a number of hearings since the Good Friday 
Agreement, assisting the progress of human rights, truth, and 
justice in our country. I'd also want to thank your staff and 
everyone involved in facilitating this hearing.
    Dealing with the past, in which multiple harms and 
egregious human rights violations have occurred--not least 
systemic abuses that had official government sanction--is a 
prerequisite of any post-conflict transformation. Righting the 
wrongs of the past, truth seeking, and accountability, are an 
imperative to individual and societal recovery and healing, the 
restoration of human dignity, and the promotion and protection 
of human rights. No one community has a monopoly on the human 
heartache that was our conflict. We all suffered. However, in 
terms of accountable justice there exists a huge deficit for 
those affected by state violence and collusion. And it is no 
coincidence that these families face innumerable barriers to 
justice.
    There is powerful resistance to a process that addresses 
the past in the North of Ireland, in an openly transparent, 
legally compliant, and, above all, independent way. The 
resistance emerges from people within the police, the military, 
some institutions, political unionism, and the British 
Government, who are not neutral.
    They all seek to maintain a false narrative of the past and 
about their true role and extent in the conflict. This 
position, therefore, necessitates the denial of rights and 
ultimately accountable justice. Moreover, this position is 
unsustainable if there is to be meaningful change and the full 
implementation of all envisaged in the Good Friday Agreement.
    Two weeks ago in the Belfast High Court, Justice Paul 
Garvin ruled that former First Minister Arlene Foster acted 
illegally and with improper political motive when she blocked 
attempts by the North's foremost legal representative, the Lord 
Chief Justice Sir Declan Morgan, to secure funding for legacy 
inquests into 55 cases involving 97 killings, inquests where 
families have waited up to four decades to hear.
    At the same time, in an adjoining courtroom, Justice 
Bernard McCloskey finally removed himself from a hearing in 
which the former head of RUC Special Branch, Raymond White, 
challenged the police ombudsman's powers and findings into the 
Loughinisland massacre, which evidenced RUC collusion.
    He delivered a scathing preliminary judgment against the 
police ombudsman, but it was then discovered that he had 
previous acted for the police and the head of Special Branch 
when they challenged the police ombudsman report into the 1998 
Omagh bomb, in which Nuala O'Loan, then police ombudsman, was 
highly critical of the Special Branch. Her criticisms included 
prior intelligence about the planned attack from an agent 
within the organization responsible, which might well have 
prevented it. The McCloskey judgment, upheld strikingly similar 
submissions advanced by the same judge acting as a lawyer for 
the same former head of the RUC Special Branch Raymond White on 
that occasion. The case will now be held afresh.
    As a consequence, the police ombudsman is only able to 
publish several major reports into killings involving collusion 
until the court case concludes. This rear-guard action by the 
former of RUC Special Branch is also designed to stall and 
frustrate the process of accountability. With appeals and 
challenges, it may take several years to conclude, which is 
time families don't have. The current police ombudsman, who has 
the confidence of families, has approximately 15 months left to 
serve as head. The objective is, we believe, to remove him.
    More recently, in the same High Court, the PSNI chief 
constable, George Hamilton, was found to be in contempt by 
Justice Ben Stephens for refusing to provide disclosures in a 
civil case taken by John Flynn in respect to a series of murder 
bids on Mr. Flynn by the notorious Mount Vernon-based Ulster 
Volunteer Force (UVF), a sectarian criminal gang in which 
multiple gang members worked for the RUC Special Branch. Police 
Ombudsman Nuala O'Loan, who testified before this commission on 
more than one occasion, produced a report entitled ``Operation 
Ballast,'' which detailed the activities of this group.
    At the same time, in an adjacent criminal court, families 
who had loved ones killed by the UVF gang based on Mount Vernon 
observed as its leader Gary Haggerty was being sentenced for a 
series of criminal activities, including murder. Haggerty, 
himself a Special Branch agent throughout his reign of terror, 
had become an assisting offender in 2009. As an assisting 
offender, Haggerty spent seven years providing evidence on all 
of his activities and accomplices, including his Special Branch 
handlers who directed his activities and who covered up his 
actions--evidence which the courts accepted as credible.
    Families accepted that Haggerty would get a reduced 
sentence as an assisting offender, but this was mitigated 
somewhat in that they would also see his Special Branch 
handlers in the dock as well as his fellow loyalists as part of 
this process. None of this happened, despite promises by the 
PSNI and the Public Prosecution Service throughout. The matter 
is now subject to a judicial review by the McParland and 
Monaghan families, who lost loved ones. It is suspected that 
the reasoning behind the deliberate failure to disclose 
evidence in the Flynn case is to protect the same group of 
agent handlers within RUC Special Branch also involved with 
Haggerty and shield them from prosecution.
    These matters bring into sharp focus the independence of 
the PSNI, where a cabal of former RUC officers who transferred 
over to the PSNI now hold senior positions and now control 
dealing with the legacy of the past. Astonishingly, this 
stranglehold on legacy involves some of the 20 percent of 
former RUC who took the incentivized redundancy retirement 
package to leave and to enable change and fresh faces to come 
into place, but they simply returned as consultants and 
civilian workers the following week. Astonishingly, in this 
civilianized capacity, former RUC within the PSNI are not 
subject to the oversight powers of the independent police 
ombudsman, a loophole that the U.K. and political unionism 
refused to rectify.
    Taken together with the overall position of the PSNI on 
legacy, this has had a corrosive effect on nationalist 
confidence in policing, which is now at an all-time low.
    The 2009 offer to Haggerty came--strangely or not--from 
MI5, the PSNI, and the Public Prosecution Service. The blurring 
of boundaries and interference in due process calls into 
question, at the very least, the very institutions of justice, 
and of course this is nothing new.
    The trial of British Army Force Research Unit (FRU) agent 
Brian Nelson in 1992 saw the then-British Attorney General 
Patrick Mayhew direct the prosecution against him following 
interventions by the U.K. Government in a bid to protect Nelson 
from taking the witness stand and disclosing his full 
activities, including murder. A deal was struck for Nelson's 
silence. And in return, 20 counts were removed from the 
indictment, including 2 of murder.
    1988, the same attorney general told the British Parliament 
that it would not be in the public interest to proceed with 
prosecutions against RUC officers from a specialist unit known 
as E4A involved in a series of deliberate shoot-to-kill 
incidents of unarmed republicans. The collusive activities of 
the FRU and RUC Special Branch were the subject of three major 
inquiries by the then-U.K.'s most senior police officer, Sir 
John Stevens. These took place from September 1989 until April 
2003.
    His inquiries found collusion and he recommended that 25 
members of the FRU and RUC Special Branch be prosecuted. This 
was never acted upon. Sir John Stevens later told the British 
parliamentary committee that of the 210 people he arrested 
during his inquiries--that is, not members of the police and 
the military--of those 210, 207 were working inside 
paramilitary organizations for the British State.
    And so we see a pattern where accountability is thwarted 
and prevented when involving state killings, its agents 
operating inside illegal paramilitaries involved in murder, and 
those agent handlers directing and protecting them. It is about 
shielding British State conflict policy and practices of 
wrongdoing on a massive scale that, if uncovered, would 
completely tilt the conflict narrative.
    It is about protecting the reputational damage this would 
inflict on the U.K. also. It is also about where this leads to 
in London and, importantly, to whom. Who sanctioned all of 
this? It is precisely why there exists so much opposition to 
addressing the legacy of the past.
    The pattern of insulating and protecting against such 
situations of exposure can also be seen across a range of 
institutions and proposed mechanisms to deal with the past. 
Take, for example, the agreement reached in December 2014 at 
Stormont House to address the past. Post the agreement, the 
U.K. Government arbitrarily inserted a ``national security'' 
veto into draft legislation, enabling the retention and 
nondisclosure of information and material in any case they 
deemed to be necessary. Charlie Flanagan, who is the minister 
who negotiated the agreement on behalf of the Irish Government, 
described this as a ``smothering blanket'' of national security 
that was completely ``unacceptable.''
    More recently in correspondence to Relatives for Justice, 
the British secretary of state for the North said that any 
consultation on the implementation of the Stormont House 
Agreement mechanisms to address the past would also include a 
statute of limitations for British soldiers, an amnesty. This 
would be unacceptable and illegal.
    One of the main arguments proffered for systemic delays in 
addressing legacy is a lack of resources and funding. This has 
dramatically impacted the police ombudsman office and the 
inquest courts, with budgetary cuts despite the increasing 
caseload. It is no coincidence, therefore, that these also 
happen to be the only two functioning mechanisms that currently 
contain the potential to deliver the truth and accountability 
for families. Now their capacity is hampered.
    By contrast to the resource argument, the PSNI and other 
agencies have paid out tens of millions of pounds in a range of 
civil cases in order to forgo having to disclose information 
about collusion. So the argument is false. It is in this 
overall context that resistance by the U.K., supported by 
political unionism, to addressing the legacy of the past in a 
meaningful, constructive, independent, and legally compliant 
way must be viewed.
    As a signatory to the European Convention on Human Rights, 
the U.K. are legally obligated to conduct thorough and 
independent investigations in accordance with Article 2 of the 
Convention, the Right to Life. Under the Convention, states 
must take measures where life is potentially under threat, 
ensuring safety, and where life is taken then they must ensure 
investigation meets the above standards.
    In truth, the U.K., through its security and intelligence 
agencies, issued threats to citizens, denied them protection, 
and assisted in every conceivable way those they then sent to 
kill them. This is the conclusions of the Stevens inquires, the 
De Silva Review, and the Police Ombudsman. It is why the former 
U.K. Prime Minister David Cameron apologized to the Finucane 
family. In short, Article 2 must govern and be at the heart of 
any future mechanism to address the past. This legal 
obligation, it would appear, has proven hugely problematic for 
the U.K. authorities. Hence, the national security veto, the 
proposed statute of limitations, and the general circling of 
wagons.
    This is best illustrated in the powerful European body, the 
Committee of Ministers to the Council of Europe. Following the 
May 2001 European Court on Human Rights ruling in the McKerr 
group of cases, where the U.K. domestic investigative 
procedures were unanimously found to have been deliberately 
prohibitive to establishing the facts and holding to account 
the perpetrators in respect to state killings, including 
collusion, the court passed a judgment to the Committee of 
Ministers for supervision. The role of the Committee of 
Ministers is to assist the offending state to remedy the 
violations by way of ensuring the proper investigative 
procedures, legally compliant with the Convention, are put in 
place.
    Since May 2001, the Committee of Ministers has refused to 
sign off on their supervision of the U.K., having not been 
satisfied that the U.K., through its action plans, has 
fulfilled its legal obligations. That is 17 years. Families 
want truth, the right to know who precisely were behind the 
murders of their loved ones, and accountability for it. It is 
not acceptable that the U.K. State, rather than meet its legal 
obligations to investigate, would prefer first to deny the 
truth, then when evidence is revealed, delay processes to 
secure justice and accountability, all in the hope that 
relatives may simply die off--which is happening.
    But other relatives are picking up the baton, continuing 
the fight, newer generations. And so families will never give 
up. As I said at the outset, accountability for human rights 
violations are central to healing and recovery. It enables the 
victim to recover that sense of disempowerment often associated 
with a wrong committed. Righting that wrong is therefore 
ethically, morally, and above all legally imperative, not least 
when the finger--the evidential trail--points and leads 
directly to those in power--the police, the military and the 
government, who carry the duty to protect and prevent 
wrongdoing but who, instead, engaged in the practice of murder 
and cover up.
    In such situations, the necessity to ensure justice and 
accountability is, arguably, all the more. Implicit in this 
testimony, there has been no police reform when it comes to 
dealing with the legacy of the past, only obfuscation. 
Implicit, families are actively to the fore in public 
discourse, engaged in litigation and other forums, seeking 
truth and accountability for past violations, having to 
challenge a state standing in their way. The work by families 
is about historic clarification, the dignity of truth and 
healing. The families we are humbled to work with, the families 
engaged in all of this work, are the real heroes of the Irish 
peace process.
    Finally, I want to put on the record the crucially 
important international forum these hearings provide to 
families and NGOs engaged in the promotion and protection of 
human rights and to secure justice. These hearings, even 20 
years after the peace accord, are necessary in assisting and 
encouraging a rights-based approach within the context of our 
still-developing peace process. A lot has been achieved, but 
the reality is, we are not there yet. Your influence, 
vigilance, and scrutiny therefore have real meaning and impact 
in the work still to be completed. In particular, I want to 
acknowledge Congressman Smith for your consistent and dedicated 
work over the two decades in seeking to consolidate and build 
upon the peace process.
    On behalf of the families, we thank you.
    Mr. Smith. Thank you very much, Mr. Thompson, for your 
extraordinary testimony--incisive, pointing out the coverup. 
You know, resource-starving of the police ombudsman is one way 
of creating even more of a sense of impunity. And chapter and 
verse, you have laid it out so effectively. I continue to be 
amazed at both some of the ruling parties and certainly the 
British Government don't seem to understand the dishonor that 
this continued obfuscation, denying resources so that the 
police ombudsman can do its work, produce reports and, of 
course, above all, bring prosecutions for those who have 
committed high crimes, especially murder, and the collusion 
that led to those murders brings nothing but dishonor to the 
British Government.
    And my hope would be that--we have a resolution, which, 
again, recognizes the achievements of the Good Friday Agreement 
but also, simultaneously, points out that there are shortfalls.
    And in this area--and I misspoke before when I said this 
was my 16th hearing. This is my 17th. We actually had a 
hearing--and I think you will find this very interesting, 
Judge--we had Edward Wallace and Mary Paglione, who were the 
presidents of the AOH and the AOH Ladies back in 1997--and I 
remember well their testimony.
    And, Mr. Gormally, we also had Martin O'Brian, one of many 
times that he was here. Matter of fact, it was in Belfast in a 
meeting with Martin O'Brian and Rosemary Nelson when she had 
multiple death threats made against her by the RUC that we 
decided to bring her here. And she testified. And about a half-
year later she was killed in a terrible, terrible assignation. 
Her words were haunting. She was warned. And that sense of 
impunity and that sense of violence, collusion at the highest 
levels of government continues to this day.
    We do have some votes, so we will take a brief respite--
four votes are on the floor. But I do have a number of 
questions I would like to ask each of you. I would like to 
start with one. The statute of limitations issues. In this 
country, in any civilized country, there are no statutes of 
limitations on murder. And, Judge, as you know, some of our old 
civil rights cases that go back to the 1960s, when compelling 
information would be brought forth, those who have committed 
those crimes can be brought to prosecution. And to think that 
this is being hid under the table, covered up, systematically.
    I think something that you said, Mr. Thompson, was very--
taken together, the position of the PSNI on legacy has had a 
coercive effect on nationalist confidence in policing, which is 
now--and this is really a powerful statement--at an all-time 
low. And that it has been very low in the past. To think that 
it's at an all-time low is frightening.
     So if you could just speak to that as soon as we resume 
our sitting. And again, I thank you for your testimonies.

    [Recess.]

    Mr. Smith. The Commission will resume its hearing. And 
again, I apologize for the rather long recess. We did have four 
votes, and they took a little while to get through.
    Let me just ask, if I could, some opening questions. I did 
begin to set up the question about the statute of limitations. 
If you could speak to that as being--you know, in terms of 
jurisprudence, in terms of law, it seems to me that that is an 
aberration in the extreme.
    So, Mr. Gormally, you might want to speak to that first.
    Mr. Gormally. Thank very much, Chairman.
    I think the first thing to say is that the idea of a 
statute of limitations is foreign to U.K. law anyway. Though 
there are certain limitations on occasion in terms of timing, 
in civil cases and things like that. But in criminal--serious 
criminal cases, anyway, there's no such thing as statute of 
limitations. So it's a concept that's been plucked out of the 
air, really, in order to avoid the word amnesty, because that 
is, in effect, what it would be. And again, an amnesty for a 
serious crime, except in certain circumstances of post-conflict 
resolution and so on, is completely contrary to international 
law. It's highly likely as well it would fall afoul of the 
Human Rights Act, the European Convention of Human Rights, even 
in terms of discrimination. You can't say that certain 
categories of people will be exempt from the application of the 
law and others won't be, just on an arbitrary basis.
    In all fairness, however, I think one has to say that this 
proposal comes from certain elements of the military, of the 
conservative party and only certain elements of the Democratic 
Unionist Party [DUP], for example, because other people--it 
would negatively affect other people who are constituents. For 
example, those who see themselves as so-called innocent 
victims, as opposed to other people. The perpetrators might be 
caught by a general amnesty because the only real way you could 
make it legal in terms of discriminating between different 
categories would be to make it broader. Now, even that might be 
against international law, depending. So it's a kind of an idea 
that's come from certain particularly reactionary and blinkered 
members, I think, of political society.
    And probably isn't even majority-favored by the U.K. 
Government. And so I think that the idea that it would be in a 
consultation--a formal consultation--allegedly this was 
negotiated out with the side agreement, so-called, that Sein 
Fein had with the British Government. I mean, we don't know 
this, it's only what the parties have said. And we don't know 
if it will be back in the consultation if and when it comes 
out. But we don't even know when the consultation's going to 
come out. We've been promised it year after year and it's never 
yet happened. So we'll have to see.
    But what it is, is a rather distressing kind of reminder of 
the mindset of people who will put the rule of law at risk for 
a narrow view of history on the one hand, and a desire for 
impunity for certain sections of society on the other.
    Mr. Smith. Mr. Thompson.
    Mr. Thompson. Yes, well, I concur fully with what Brian 
says in respect to it being wrong in terms of human rights and 
there being no precedent for it. I think in some senses, there 
has been a de facto impunity that has existed during the course 
of the conflict in which members of the police and the British 
army killed people. The majority killed were unarmed civilians, 
over 60 children--that is, people age 18 and under--women, 
priests aiding the injured. Two priests were murdered in west 
Belfast--one during Ballymurphy, and the following year another 
priest in Springhill, where another three children and another 
man were killed along with that priest.
    I think the sense of it was that the investigative 
processes were deeply flawed. We uncovered a secret document 
out of the official British records from July 1972 in which the 
then-secretary of state for the North of Ireland, the senior 
military general officer commanding the commander of land 
forces, the police constable, and other senior Tory politicians 
in Britain had a conversation that was noted in which they said 
it would important to indemnify soldiers from prosecution as 
they went into areas and conducted their activities. And in 
some senses, that document sets the basis for the de facto 
impunity.
    Therefore, the domestic investigative processes were 
deliberately flawed in holding to account and punishing police 
officers and soldiers. But it went beyond that, also the agents 
that they had secreted into paramilitary organizations and who 
were directed. So all of that clandestine activity, any proper 
investigation would uncover it. So, therefore, the 
investigative system was deeply flawed. It was not what was 
practiced elsewhere in the jurisdiction, for example. Police 
investigated themselves. Royal military police investigated 
soldiers. The RUC overall conducted what were perfunctory 
investigations, resulting in no prosecutions.
    The public prosecutor would never make public how he or she 
arrived at determinations not to prosecute where prima facie 
evidence existed that would have warned of prosecutions. And 
thus what happened was that the cases were long-fingered and 
sent to an inquest, a colonial process, to which juries could 
not return findings of unlawful killing. They were restricted. 
And the whole circumstances pertaining to the killings were not 
allowed to be discussed. So really what they were, were a sham 
process.
    So in 1998 Relatives for Justice, along with the Committee 
on the Administration of Justice and Families and lawyers 
gathered to discuss the impact this had, why in a court in 
Belfast could we not get to the facts and we couldn't establish 
them? So the investigative process itself was put on trial in 
the Article 2 case in 2000 that went to Europe, with the 
unanimous decision in May 2001 that the investigative processes 
at play, particularly pertaining to state killings and whether 
there was collusion, were not compliant legally with the U.K.'s 
obligations under the convention.
    And that has been the problem for 17 years. The Committee 
of Ministers has refused to give a clean bill of health to the 
U.K. Government. So Article 2 has presented a huge problem for 
the British Government. And any independent process with 
transparency that examines these issues will inevitably get to 
the bottom of it. So the national security veto, the statute of 
limitations, the denial of funding to the coroner's courts, the 
denial of funding to the police ombudsman is circumventing all 
of these processes, is really designed both to stall and to 
prevent the exposure of what really went on.
    And that's what's behind us really. It is the U.K. 
Government that is stalling and dragging its heels, supported 
by political unionism and a cabal of very powerful former 
police officers and intelligence people that have influenced 
the Tory party around the statute of limitations. As one person 
would say to me, a family--they told us for 40 years they never 
did anything wrong. Why now do they want an amnesty?
    Mr. Smith. Does the coalition government in the U.K. have 
any bearing on this issue? Does it affect Theresa May's 
perspective in terms of trying to deal with impunity?
    Mr. Thompson. Well, of course, the U.K. Government, they're 
holding on with a slender majority, of which 10 DUP MPs keep 
them in power. And we--you know, there are a number of the--
three DUP MPs have signed the motion for the amnesty, the 
statute of limitations in the U.K. Parliament. But as Brian 
pointed out, there's a little bit of tension within that party, 
insofar as its leader, Arlene Foster, who herself is a lawyer, 
had told her party colleagues that if you go down this route 
and you seek an amnesty, what will in effect eventually emerge, 
if it were to emerge, is that the amnesty would be general to 
cover all the actors to the conflict.
    And in her constituency, quite a number of people have been 
harmed and affected by other actors in the conflict. And that 
amnesty then would impact, if it were to be a general amnesty, 
right across the board. And they would feel that at the 
electoral count, if you will. So there's mixed messages. What 
they really want is, they want an amnesty for state forces and 
not for anyone else. And that's not possible.
    Mr. Smith. Over the years we've had every special envoy 
testify at these hearings. Above all, having a presence in 
Ireland and Belfast certainly has been a game-changer. Our 
resolution, as you know, calls for the establishment of that 
envoy. I raised it with Secretary Tillerson in meetings some 
time ago, six months ago or more, as well as with the special 
envoy on combating antisemitism.
    Could you detail for us what you think would be the 
positives, so that we can obviously bring that to the State 
Department, bring it to President Trump and Vice President 
Pence, why that's so important right now to re-establish a 
special envoy----
    Judge McKay. Congressman, I think--oh, I'm sorry.
    Mr. Smith. Please, Judge.
    Judge McKay. I certainly think timing is important. And 
it's so--I see it in the legal field every day that more things 
are going to mediation and arbitration from a practical 
standpoint, that people who, like on each side of the legal 
argument, can't stand to be in the same room with each other 
sometimes. And it's always nice to have someone go take their 
request, that's not coming from one of the parties, one of the 
litigants.
    So I think practically speaking and conceptually speaking, 
it's made to order. And we've already seen the results 20 years 
ago when it worked so well. So I do think that a trusted third-
party participant sitting down with the litigants is very, very 
important.
    Especially since there's no government that--Stormont is 
dead in the water. And somebody has to take the impetus, and 
nobody's willing to move. And I think timing is everything. And 
I think, you know, if they tell me in five years, well five 
years is too late. Five months may be too late.
    Mr. Smith. Gentlemen?
    Mr. Thompson. Yes. I would agree there needs to be an 
impetus to move things forward. I think that, you know, there--
the U.K. likes to present itself as a neutral player in this 
situation, or a facilitator. And that's quite disingenuous. 
That's anything but the truth of the matter. So therefore 
intervention, as has always been from President Clinton, the 
bipartisan approach, Senator George Mitchell, the involvement 
of Senator Haass, and other envoys and other people that have 
tried to assist the process has always been a useful and very 
worthwhile process.
    I spoke in my testimony about the all-time low of 
confidence from the nationalist republican community in 
policing, given the position and stance on legacy by the PSNI. 
I'd probably like to maybe just illustrate this, because it's 
probably important that you hear it in a very human way. My 
brother was murdered by the British army. He was unarmed. He 
was shot 13 times by two soldiers in quite appalling 
circumstances in West Belfast in January 1990. He was killed 
along with two other men. And I have a cousin who was a 
republican who was killed in the conflict too.
    Now, the example of how this is probably--if my mother and 
my aunt went out in Belfast this evening and, God forbid, their 
handbag was stolen or their car was broken in and taken, the 
response by the on-the-ground PSNI is markedly different and 
completely transformed to when it was the RUC. There's no 
question about that. A lot of the problems aren't coming from 
ordinary guys and police officers, male and female, on the 
ground.
    If my mom and my aunt were to go to the police tonight, or 
go anywhere and ask about, ``we want to know what happened to 
our children,'' there is no change whatsoever. It is exactly 
the same. And that is where the problem is. It's about the 
unwillingness to deal with these matters. So by virtue of the 
PSNI on the front line, and the cabal of officers that I 
referred to, and the stranglehold on legacy, because we must 
remember former RUC Special Branch officers are now in the PSNI 
as civilian workers, unaccountable to the police ombudsman, who 
are determining what evidence----
    Mr. Smith. And how many----
    Mr. Thompson. Twenty percent of the RUC went back into the 
PSNI as civilianized workers. Many of them are former leading 
members of the Special Branch. They designed the process of 
disclosure to the courts around legacy. And they are dictating 
the pace of what is and is not disclosed. They are people who 
in which the organization they were part of is being examined 
in those very same courtrooms. That is not acceptable. A 
national security veto to bury the sins of what you were 
involved in is not acceptable. None of this is acceptable. And 
it doesn't comply with the U.K.'s domestic and international 
legal obligations. And Article 2 will govern whatever emerges. 
And that's what they're trying to prevent. That's really where 
this is at.
    Thank you.
    Mr. Smith. Just a couple of final questions. On the 
Finucane case, what do you see? Where will we be in a year, 
five years? Are they, just like other cases, just covering it 
up?
    Mr. Thompson. Well, of course. And the family have been----
    Mr. Smith. I know the answer, but I want to get you on the 
record.
    Mr. Thompson. Yes, the Finucane family have been a 
marvelous inspiration to the other families. They are beacon of 
hope. I think Geraldine in particular, in her leading of this 
family, the campaign by the family to achieve the inquiry--many 
families look to her because the inquiry by virtue of it will 
vindicate what they claim.
    But it also will look at the policy of collusion that 
affected many, many hundreds of people across the community. 
The U.K., as you know, committed, along with the Irish 
Government of Weston Park to hold an inquiry. And then they 
changed the legislation around government inquiries and brought 
in the legislation that prevented involvement of the British 
minister to determine what----
    Mr. Smith. Well, you recall we protested that profoundly, 
robustly.
    Mr. Thompson. Yes.
    Mr. Smith. I mean, I couldn't believe that they would give 
that kind of veto power to the ministers. It was a sham.
    Mr. Thompson. Totally. And then gave the review by Sir 
Desmond de Silva QC into the murder of Pat. In itself, it 
wasn't what was required. Much more is required. In all, the de 
Silva review threw up quite fascinating facts. For example, the 
organization, the Ulster Defence Association (UDA), that killed 
Pat Finucane, 85 percent of its intelligence--and remember, it 
killed several hundred people--over 600, almost 700 people--85 
percent of the intelligence involved in those murders came from 
either secret service MI5, British army military intelligence, 
or RUC Special Branch. And that's an indictment in itself.
    So the failure to hold the inquiry was challenged. And it 
will be at the supreme court in the next number of weeks, where 
the family went to London to challenge the failure to implement 
the--what was an internationally binding agreement between two 
governments to hold the inquiry. And I think that illustrates 
in a microcosm the broader macro problem that exists in 
respects to dealing with past when it concerns the British 
Government.
    Judge McKay. There seems like two standards of engagements. 
One in London and one in Belfast. This is--you know, it reverts 
back to, they want to have a statute--in a way, the statute of 
limitations in Belfast and not in London.
    I'm sure if Pat Finucane were murdered on the streets of 
London in the same manner, this would have been headlines and 
inquiries going on within three or four months. But because it 
involved the North of Ireland, well, that's a separate set of 
rules that they have. And this is what we hope that envoys and 
involvement in other Helsinki groups, the hearing that we're 
having today, will have some effect on that in the future.
    Mr. Gormally. Yes, I think the Finucane case is emblematic, 
clearly, of the failure to properly investigate. And it's 
emblematic almost because of the seriousness with which, 
paradoxically, the U.K. Government has actually taken the 
issue, that it was one of those that was subject to the Tory 
report which the Canadian judge who was brought in to look at a 
number of cases. And the commitment was to hold an inquiry if 
he recommended inquiry. And he did, and they didn't.
    And the reality is that even with the 2005 Act--which 
you're quite right was an appalling Act deliberately designed 
around this case to prevent whatever it is coming out--but even 
then the agreement between Geraldine's lawyers and the 
government's lawyers was that they would have a so-called 
Bahamuza [ph] thing. This was an Iraqi inquiry under the Act, 
but where the government in advance promised, you know, 
publicly not to use the powers to intervene in the inquiry 
process. And Geraldine was prepared to accept that. And when 
they went to Downing Street that time, they fully expected that 
that was going to be announced by the prime minister. And 
according to those who were at the meeting, in fact, what he 
said, there are people around here who won't let me have an 
inquiry.
    And one has got to ask oneself, as Mark just said, the 
revelations that were in the review of the papers--so-called--
were actually quite startling in themselves. So there's 
something else still that remains hidden. And you really do 
have to ask yourself: What is it in this case?
    We know there was collusion. The prime minister of the U.K. 
apologized in Parliament for it. But we don't know the 
character of that, how far it went upwards or across. You know, 
to what extent was this an authorized policy, or was this 
murder politically sanctioned? There must be something of that 
character.
    And that's one of the reasons why the Finucane case is so 
emblematic. It's so serious at the one level. And so 
extraordinary have been the permutations and convoluted kind of 
exercises to avoid a full public inquiry that it points to 
something deeply dark and deeply rotten in human-rights terms.
    Mr. Thompson. Just for the record, in respect to the 
decision not to hold an inquiry as the U.K. had promised, the 
most senior British civil servant sent a communication to David 
Cameron and between other civil servants, and it's a matter of 
record in the court case, in which he said: I don't get this. I 
don't understand it. This is much worse than anything in Iraq 
or Afghanistan. Why aren't we holding the inquiry?
    So even within the civil service there seem to be--and as 
Brian rightly alluded to--when the signaling of the buildings 
around here, what was really that was about was Whitehall. 
That's the establishment itself, the political-military 
establishment that are implicated and who have questions they 
themselves they ask.
    Mr. Smith. Well, I would say an apology without justice is 
no apology at all. It is beyond shallow.
    Thank you. Yes. Thank you so very much. If you have 
anything you'd like to add, like where we might be in the next 
six months if there's not a concentrated refocus on this----
    Judge McKay. I'm sure they do. But I would like, on behalf 
of the Ancient Order of Hibernians, to thank you for your House 
resolution. And anything that we can do in this country to get 
our folks mobilized to add any backing that you need we 
certainly offer. And thank you personally for what you do for 
the Irish.
    Mr. Smith. Well, certainly a letter to the speaker to make 
sure it comes up. I mean, we're trying, and I think it will 
come up. And any additional language you think might make it 
stronger, more clear, or anything along those lines because 
it's--you know, introduction is only the first part of the 
process. It'll have to be marked up in committee and then go to 
the floor. So if you have any thoughts on that, please.
    Mr. Thompson. Just a thought. We have a political vacuum.
    Mr. Smith. Yes.
    Mr. Thompson. We have the unfulfilled promises around the 
Finucane case. We have the unfulfilled promises for thousands 
of families across the community to implement an Article 2-
compliant investigative process that examines the past, which 
has been agreed to by all the executive parties when the 
executive was functioning and both the governments. The U.K. 
needs to be urged to join the rest of us--the international 
community, the human rights NGOs, the families, the majority of 
the political parties on the island--to get over on the right 
side of the line with the Unionists and do the right thing. An 
envoy would certainly contribute immensely to that.
    But we also have Brexit coming, so we have a situation 
where there's a political vacuum, there is confidence at an 
all-time low on policing because of what we've spelt out 
collectively, and Brexit and the border. All of those contain 
the potential for six months, or in a year's time to further 
undermine the political institutions of the Good Friday 
Agreement and what was envisaged within it.
    So I do think that it would be timely to have a U.S. 
intervention.
    Mr. Smith. Thank you.
    Mr. Gormally?
    Mr. Gormally. Thank you, Chair. Well, let me echo the 
thanks of my co-contributors to you and the commission for 
continuing to keep the spotlight on Northern Ireland and human 
rights in Northern Ireland. And it is very, very, very strongly 
welcomed and supported back in Ireland.
    In terms of where we are going forward, as Mark has 
suggested, we are in a situation of many unknowns. It's a 
situation of flux. It's probably the most unstable time in many 
ways since the Good Friday Agreement was made, and we really do 
not know what's happening. There is a perfect storm, in a 
sense, of the institutions no longer up and running, Brexit 
coming along, an unstable political alliance at Westminster 
with one faction of Northern Ireland politics having a 
disproportionate influence on the U.K. Government. So we're in 
a dangerous place, there's no doubt.
    All I can say from our perspective is that the real 
lodestar, the guiding principle before and since the Good 
Friday Agreement, is to implement human rights standards. The 
extent to which that has been done is the extent to which the 
Good Friday Agreement has succeeded in bringing us relative 
peace. The extent to which those commitments are unfulfilled is 
the extent to which our peace is unstable and has not been made 
permanent. And we have yet to achieve the rights-based society 
which is the promise of the agreement.
    Mr. Smith. I thank you so very much. You know, Peter Cory 
testified before our Commission in 2004. He couldn't have been 
clearer that resolving those cases, starting with Pat Finucane, 
were the lynchpin to Stormont. And, you know, he was himself 
incredibly frustrated. He spoke for about an hour without a 
single note, he was so focused on the issue. And, you know, so 
many people continue to be disappointed in the beyond-
lackluster performance by the British Government and by other 
parties that have, I believe, been part of a massive coverup.
    I thank you again. The hearing's adjourned.
    [Whereupon, at 11:37 a.m., the hearing ended.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


            Prepared Statement of Hon. Christopher H. Smith

    Mr. Speaker, on March 22 I chaired a hearing at the 
Helsinki Commission on the achievements--with a special focus 
on the unfinished business--of the April 10th, 1998 Good Friday 
Agreement. As Members know so well, the signing of the Good 
Friday Agreement 20 years ago was truly historic, 
extraordinarily difficult to achieve, a remarkable framework 
for peace, and the hope for beginning of reconciliation.
    In its most important provisions, the agreement launched a 
series of challenging protocols, by which the leaders of the 
nationalist and unionist communities in Northern Ireland agreed 
to a better governance, and peaceful resolution of differences. 
Prisoner releases, new government structures, British 
demilitarization of the North, the decommissioning of 
paramilitary weapons and systemic police reform were achieved 
to varying degrees over the last 20 years. In the 30 years 
between 1969 and 1998, approximately 3,500 people were killed 
in political violence, while in the 20 years since the Good 
Friday Agreement fewer than 100 have lost their lives.
    I have personally chaired 16 congressional hearings and 
markups of legislation on human rights issues in Northern 
Ireland, most of them with a special focus on police reform and 
the need to establish a public, independent judicial inquiry 
into State-sponsored collusion in the murder of human rights 
attorney Patrick Finucane and others who were gunned down or, 
in the case of Rosemary Nelson, killed by a bomb. I also 
offered legislation that was adopted by the House of 
Representatives that put the House on record condemning 
violence and promoting peace and justice in Northern Ireland 
and police reform. And I just recently introduced H. Res.777 
which calls for a recommittal of the United States, the 
British, and all parties--including the Republic of Ireland, to 
the peace process.
    The most contentious of my amendments over the years, one 
of which became law, resulted in suspending all U.S. support 
for and exchanges with the British police force in Northern 
Ireland, the Royal Ulster Constabulary, or RUC, until standards 
were met to vet RUC officers who engaged in human rights 
abuses. Those new standards were set and eventually then-
President Bush was able to certify, in accordance with my law, 
that human rights principles were part of police training going 
forward, both in the RUC and in its reformed successor, the 
Police Service of Northern Ireland, or PSNI. With the 
improvements, the police exchanges were resumed.
    That is the good news. But as the 20th anniversary of the 
Good Friday Agreement milestone approaches, serious attention 
and effort needs to be paid to achieving the dream. First and 
foremost, the government in Northern Ireland seems unable to 
consistently function or even constitute itself. Also, after 20 
years, despite many obvious successes and benefits of the Good 
Friday Agreement, and although no one wants to scrap it--no one 
would want to return to the killing?--the reconciliation to 
some extent has stalled. One of the reasons is that long-
standing cases have not been resolved.
    Geraldine Finucane, widow of murdered human rights lawyer 
Patrick Finucane, submitted testimony for my March 22d hearing. 
And she points out, and I quote in part, ``My family has 
campaigned for a public inquiry into Pat's murder, but the 
British government has repeatedly failed to establish one. 
Instead, they have instigated one confined investigation after 
another, claiming to want to examine the facts or get to the 
truth, but always in a process conducted away from public view. 
One cannot but wonder at the pointlessness of conducting 
investigation after investigation that are doomed to fail, no 
matter how forceful the conclusions, because they lack the 
transparency required to attain public confidence.''
    As Geraldine points out further in her testimony, ``the 
1998 agreement represent a new beginning that would mark a 
point from which the new future for everyone in Ireland, north 
and south, could be launched. What was not appreciated or 
acknowledged, however, was the fact that moving forward also 
meant dealing with the past.'' And of course, that is something 
that this Commission and my Subcommittee on Human Rights has 
tried to do for the last 20-plus years.
    I would like to just point out too, testimony that's been 
provided to us by the Committee on the Administration of 
Justice-again, a very important quote from them, ``In a highly 
disturbing development, and notwithstanding the reality that 
only a small number of legacy cases relate to British soldiers, 
a recent report of the Commons Defense Select Committee called 
for the enactment of a statute of limitations covering all 
troubles related to incidents involving members of the armed 
forces. This concept effectively means a selective amnesty for 
crimes committed by British soldiers.'' The Commons Defense 
Select Committee also suggested that it be extended to the RUC 
and other security force members. This position is, of course, 
completely contrary to human rights standards and, if were 
enacted, would probably be found unlawful by the courts. 
Nevertheless, the U.K. government has said that it will include 
the proposed in a forthcoming consultation on the 
implementation of the Stormont House Agreement. That is a 
dangerous backtracking on the part of the British government. 
Hopefully it will cease and desist in moving in that direction.

   Prepared Statement of Brian Gormally, Director, Committee on the 
                       Administration of Justice

    The Committee on the Administration of Justice (CAJ) is 
honoured to be giving evidence to this Commission on the 
occasion of the 20th anniversary of the Belfast Good Friday 
Agreement. This Agreement, and the subsequent agreements of 
different kinds designed to implement it, has given us 20 years 
of relative peace; following a disastrous, thirty year violent 
political conflict that is something genuinely worthy of 
celebration. CAJ is an organisation devoted to the protection 
and promotion of human rights. Since we know that violent 
conflict always involves a bonfire of human rights, protecting 
and promoting the peace settlement is our top priority.
    The peace agreement was designed to create a political and 
geographical space which could be shared by those with 
different national aspirations and allegiances. To do this it 
recognised the right of the whole people of the island of 
Ireland to self-determination and the right of the people of 
the North to vote to join a united Ireland. It declared that it 
was the ``birthright'' of those born in Northern Ireland to be 
Irish or British or both and established a form of government 
that would mean that one community could not dominate the 
other. To underpin all of that, however, was an infrastructure 
of proposed legislation and institutions which would guarantee 
that the Northern Ireland of the future would be a rights based 
society.
    CAJ, along with others, made substantial efforts to ensure 
human rights were mainstreamed into the peace settlement and 
the Agreement itself. There was considerable success. A cursory 
search of the text of the Agreement shows that the words 
`right' or `rights' appears 61 times. The then U.N. High 
Commissioner for Human Rights, Mary Robinson noted ``. . . the 
Good Friday Agreement is conspicuous by the centrality it gives 
to equality and human rights concerns.'' The range of 
subsequent international Agreements between the two sovereign 
governments to implement and take forward the settlement also 
contained a number of human rights commitments (although 
unfortunately no dispute resolution mechanism to assist 
implementation).
    The commitments to protecting human rights in legislation 
included a promise to incorporate the European Convention of 
Human Rights into domestic law, a Bill of Rights for Northern 
Ireland including additional rights, a Single Equality Act, an 
Irish Language Act and a duty to be placed on public 
authorities to consider the equality impacts of any policy. In 
addition, a series of Acts would be required to implement the 
recommendations of the ``Patten Commission'' on a thorough 
reform of policing. Institutionally, the Agreement established 
a new Human Rights Commission with extensive investigative and 
legislative oversight power and an Equality Commission to 
enforce the public equality duty.
    CAJ has long pressed for enforcement to ensure that the 
elements of the peace settlement which do protect human rights 
are, and continue to be, implemented. It is important to stress 
that these provisions were not mere manifesto commitments by 
governments now out of office but rather provisions which were 
enshrined into bilateral (UK-Ireland) treaties and 
international agreements between them which are binding in 
international law.
    The reality is that, while huge advances have been made and 
society in the North is now very different to that of 20 years 
ago, there are outstanding commitments and unfulfilled promises 
which weaken the peace process. Concern has been expressed by 
CAJ and other human rights organisations for some years that 
there has been and continues to be persistent attempts at a 
`rollback' by the State, or elements within its institutions, 
of the human rights provisions of the Agreements. This includes 
commitments made as part of the settlement which have never 
been implemented and areas where institutional and policy gains 
were made which are now being undermined.
    There are unimplemented commitments to legislate for a Bill 
of Rights and Irish Language Act and to introduce an anti-
poverty strategy; the statutory equality duties have not been 
properly implemented and there are unfulfilled commitments to 
repeal emergency law. There is even a threat to the European 
Convention on Human Rights and its incorporation into Northern 
Ireland law. Some commitments like the `right of women to full 
and equal political participation' and to supporting young 
people from areas affected by the conflict have never had a 
delivery mechanism to take them forward.
    There has been regression in commitments to victims' 
services, a drift away from commitments to tackle inequality on 
the basis of objective need, and to remove employment barriers 
for ex-prisoners. There has been a slow pace of some justice 
reform and the undermining of the independence of key peace 
settlement institutions such as occurred during the tenure of 
the second Police Ombudsman. Policing also has seen regression 
from the Patten blueprint--most notably in the 2007 transfer of 
the most controversial area of policing (`national security' 
covert policing) away from the PSNI and all the post-Patten 
oversight bodies to the Security Service MI5.
    Policing is particularly important in establishing trust in 
the institutions of society and in the rule of law. Huge 
progress has been made. In many respects the Police Service of 
Northern Ireland tries to live up to the Patten Report's 
Statement that the purpose of policing should be ``the 
protection and vindication of the human rights of all . . . 
There should be no conflict between human rights and policing; 
policing means protecting human rights.'' Our systems of 
accountability and oversight, especially the independent 
Ombudsman with its own investigators, should be a model for 
democratic policing throughout the world. However, areas of 
concern remain.
    The unaccountable and secret Security Service or MI5 has 
primacy for national security intelligence policing in the 
North, which is a huge gap in accountability. They run agents 
with no system--that we know of--for limiting their engagement 
in criminality. The PSNI also run secret informants but at 
least an Assistant Chief Constable has to sign off on any 
criminal activity. The PSNI is also obliged to support the 
activities of the UK Border Force and Immigration Enforcement--
which have a history of human rights abuses and no local 
accountability. We believe that there is prima facie evidence 
of the police unlawfully using counter-terrorism powers in 
immigration enforcement.
    Elements of the police are also responsible for some of the 
delay and obfuscation in dealing with the past which we detail 
below. The control of intelligence material by officers who 
served in RUC Special Branch, its over classification and the 
wilful failure to expedite the production of evidence to 
inquests and courts are all continuing problems.
    It is arguable, however, that the main area in which 
continuing human rights violations undermine society and 
threaten the peace process is one not properly covered by the 
peace agreement. That is the continuing search for impunity by 
the UK State for the actions of its agents during the conflict.
    Combating impunity is one of the foremost preoccupations of 
human rights activists throughout the world. The reasoning is 
simple--if impunity persists there can be no justice or truth 
for victims, future perpetrators will be emboldened and 
confidence in the rule of law is weakened. Those outcomes are 
exactly being produced with regard to continuing impunity for 
those who violated human rights during the conflict in Ireland. 
Victims are dying without seeing justice or even serious 
attempts to achieve it, torture and other crimes have been 
carried out by UK security forces in other parts of the world 
and faith in the rule of law is falling away.
    The delays, obfuscations and squeezing of resources by the 
UK authorities and local allies, which have been detailed year 
after year, can only be understood as designed to maintain an 
apparatus of impunity. The insistence on security agencies and 
ministers having a ``national security'' veto over what 
information is published is an insistence on impunity for their 
agents. This is why combating impunity is CAJ's top priority.
    In August 2001, the European Court of Human Rights gave 
judgment in a number of cases from Northern Ireland known 
collectively as the ``McKerr group of cases.'' These were cases 
involving deaths in which UK security forces were involved; CAJ 
was the legal representative in three of them. Other judgments 
followed in 2002, 2003 and 2013. All said that the UK was in 
breach of its obligation under Article 2 of the Convention 
(``Right to Life'') to properly investigate these crimes. To 
this day, the UK has still not discharged its obligations and 
the cases remain under the supervision of the Committee of 
Ministers of the Council of Europe, the body which oversees 
implementation of the judgments of the Court.
    In its decision of September 21st 2017, the Committee of 
Ministers:

``noted with deep concern that the Historical Investigations 
Unit (HIU) and other legacy institutions agreed upon in 
December 2014 [the Stormont House Agreement] have still not 
been established because of a failure to reach agreement on the 
legislation required;

``considered it imperative that a way forward is found to 
enable effective investigations to be conducted particularly in 
light of the length of time that has already passed since these 
judgments became final, and the failure of previous initiatives 
to achieve effective, expeditious investigations; called upon 
the authorities to take all necessary measures to ensure that 
the planned public consultation phase regarding the HIU is 
launched and concluded within a clear timescale to ensure that 
the legislation can be presented to Parliament and the HIU 
established and made operational without any further delay;''

    It went on to say that it:

``deeply regretted that the necessary resources have not been 
provided to allow effective legacy inquests to be concluded 
within a reasonable time; strongly urged the authorities to 
take, as a matter of urgency, all necessary measures to ensure 
both that the legacy inquest system is properly resourced and 
reformed in accordance with the Lord Chief Justice of Northern 
Ireland's proposals and that the Coroners' Service receives the 
full co-operation of the relevant statutory agencies to enable 
effective investigations to be concluded.''

    The exasperation of the Committee with the procrastination 
of the UK Government is clear--more important is the hurt of 
the victims still denied justice and the corrosive impact of 
the lack of institutions to deal with the past on the present 
trust in the institutions of State and the rule of law.
    There are some signs of progress in the courts. Exactly a 
fortnight ago, the High Court in Belfast held that the decision 
of the then First Minister, Arlene Foster, to prevent a request 
going to the British government to fund legacy inquests was 
unlawful (Hughes Case). The judgment was partly based on the 
finding that each part of government has to take into account 
the Article 2 duty to investigate past deaths and to ignore 
that responsibility is unlawful. The so-called ``hooded men'' 
case, in which CAJ represents the daughter of one of the 14 men 
tortured in 1971 and who died because of it, is being fast 
tracked by the Court of Appeal with the intention of getting a 
swift judgment from the Supreme Court on the application of the 
investigative obligation in both right to life and torture 
cases.
    The judgment in the Irish application for revision of the 
European Court of Human Rights judgment in Ireland v. UK--which 
in 1978 made the disastrous distinction between torture and 
inhuman and degrading treatment in respect of the hooded men--
was delivered on the morning of Tuesday 20th March. This is a 
narrow and largely technical decision by the European Court of 
Human Rights. It considered that the new evidence was not 
sufficient to show that, had it been taken into account by the 
original court, it would have been decisive in changing the 
original judgment. This is hugely disappointing in that it 
leaves the unjustified distinction between ``torture'' and 
``inhuman and degrading treatment'' intact. However, we should 
remember that the Article 3 prohibition on all such treatment, 
whatever the definition, is absolute. Those who have sought to 
justify brutal interrogation methods on the basis of the 1978 
judgment are still wrong in law and barbaric in their practice.
    For the last 4 years we have been expecting the UK 
Government to publish legislation to implement the Stormont 
House Agreement (SHA). We are now told the text will be 
published after Easter for consultation. It remains to be seen 
whether this will be a good faith attempt to implement the SHA 
in a human rights compliant manner or another way of delaying 
and denying truth with a blanket national security veto on 
information to be released to families.
    In a highly disturbing development, and notwithstanding the 
reality that only a small number of legacy cases relate to 
British soldiers, a recent report of the Commons Defence Select 
Committee called for the enactment of a ``statute of 
limitations'' covering all Troubles-related incidents involving 
members of the Armed Forces. This concept effectively means a 
selective amnesty for crimes committed by British soldiers. The 
Committee also suggested that it be extended to the RUC and 
other security force members. This position is, of course, 
completely contrary to human rights standards and, were it 
enacted, would probably be found unlawful by the courts. 
Nonetheless, the UK Government has said that it will include 
the proposal in the forthcoming consultation on the 
implementation of the Stormont House Agreement.
    It is impossible to conclude a discussion on the status of 
the Good Friday Agreement without mentioning ``Brexit,'' the 
decision by the UK to leave the European Union. This will have 
a profound effect on the legal and constitutional underpinning 
of the present jurisdiction of Northern Ireland, its relations 
with the Irish State and UK-Ireland bilateral relations. The UK 
and Ireland's common membership of the EU was an assumption in 
the Belfast Good Friday Agreement (GFA) and the UK's adherence 
to EU law regulates the powers and legislative operations of 
the devolved institutions. The equal rights of Irish and 
British citizens, a principle of the GFA, in great part relies 
on the equal rights of both as having EU citizenship. The lack 
of significant border regulation is largely due to common 
membership of the EU, North and South, as well as the improved 
security situation. The UK clamp down on immigration after 
Brexit may turn Northern Ireland into ``one big border'' with 
enhanced enforcement and serial human rights abuses. Many 
equality and antidiscrimination provisions in Northern Ireland, 
which have particular importance in a divided society, rely on 
EU law. Furthermore, the decision to leave the EU, based on a 
UK referendum in which Northern Ireland (as well as Scotland) 
voted to stay, is an affront to the principle of self-
determination of the Irish people, which is a foundation stone 
of the Agreement.
    All of these impacts could have a destabilising effect on 
the constitutional, political and legal settlement that, in the 
main, ended the violent political conflict which devaStated the 
people of Northern Ireland and gravely affected those in the 
rest of the UK and Ireland. While it is unlikely that any one 
particular effect of leaving the EU would destroy the peace 
settlement, the cumulative impact could begin to unravel it. In 
particular, any diminution in the protection of rights of the 
people living on the island could reduce trust in the GFA 
institutions and any unravelling of the settlement would be 
disastrous for human rights. A continuing preoccupation of CAJ 
will therefore be the protection of the integrity of the peace 
settlement and the various agreements that make it up.
    We would like to commend this Commission for holding this 
hearing and to support the resolution that has been put to 
Congress. The Good Friday Agreement has won us 20 years of 
relative peace but the goal of making that peace permanent, 
based as it must be on a rights based society, remains to be 
achieved.

  Prepared Statement of Judge James F. McKay III, President, Ancient 
                          Order of Hibernians

    The Ancient Order of Hibernians (AOH) is the oldest Irish 
Catholic fraternal organization in the United States, 
originally founded in 1836. Along with our sister organization, 
the Ladies Ancient Order of Hibernians, we have over 80,000 
members throughout the United States, and not just in places 
like Boston, New York, and Philadelphia--but in less obvious 
places as well, such as Butte, Montana; Los Angeles, 
California; and New Orleans, Louisiana. According to the most 
recent U.S. Census, there are an estimated 33.3 million people 
in the U.S. who claim Irish heritage. \1\ The world figure is 
estimated to be around 70 million, \2\ which means at least 
half of the Irish diaspora resides in the United States. In 
fact, we often hear it said around St. Patrick's Day that there 
are only two kinds of people in the world--the Irish, and those 
who wish they were. Even though that's just a joke, there is no 
question that for a country roughly the same size as the State 
of West Virginia, Americans do pay a great deal of attention to 
the Irish, and it is this connection between America and 
Ireland that organizations like the AOH continue to celebrate 
and foster.
---------------------------------------------------------------------------
    \1\  U.S. Census Bureau (http://factfinder.census.gov/bkmk/table/
1.0/en/ACS/13--1YR/B04003/0100000US)
    \2\  ``Global Irish: Ireland's Diaspora Policy,'' Department of 
Foreign Affairs and Trade, March 2015.
---------------------------------------------------------------------------
    Twenty years ago, a document that has come to be known as 
the Good Friday Agreement was signed by political 
representatives of the people of Northern Ireland and 
representatives of the British and Irish governments. This 
historic agreement brought an end to the violence of the 
Troubles, and introduced peace to a conflict where over 3,500 
people had lost their lives in civil unrest, proportionately 
one of the deadliest in history. \3\
---------------------------------------------------------------------------
    \3\ https://docs.google.com/spreadsheets/d/1hRidYe3-
avd7gvlZWVi1YZB7QY6dKhekPS1I1kbFTnY/edit#gid=0
---------------------------------------------------------------------------
    One of the tenants of the AOH is a quote from Padrig Pearse 
which states, ``Ireland Unfree Shall Never Be At Peace.'' The 
Good Friday Agreement delivered peace only because it also 
promised freedom. The Good Friday Agreement promised freedom 
and reconciliation based on a parity of esteem for both sides 
of that divide. The successes of the Agreement to date have 
been achieved through hard work, the commitment by members of 
all the local communities who suffered tragedies during the 
Troubles, and by requiring considerable courage from political 
leaders who faced hard consequences from their constituencies 
in making any concessions.
    Countless books and articles have been written on the topic 
of the Good Friday Agreement, and we have seen a number of 
recent celebrations of the 20-year milestone in both Ireland 
and the United States. And one of the topics that so many of us 
can all agree on is how important the United States was in 
securing this historic deal known as the Good Friday Agreement. 
The relationship between America and Ireland goes back to even 
before there was a United States. It was Ireland that first 
sent aid to struggling American colonies seeking their own 
independence. George Washington once described Ireland as, 
``thou friend of my country in my country's most friendless 
days,'' and concluded with, ``May the God of Heaven . . . cause 
the sun of Freedom to shed its benign radiance on the Emerald 
Isle.'' While having Americans insert themselves into the 
politics and policies of Ireland was nothing new at the time, 
the commitment, leadership, and direct engagement shown by U.S. 
officials during this period was unprecedented. In fact, I am 
not entirely sure we would have even had a Good Friday 
Agreement, had it not been for the engagement of American 
officials like President Bill Clinton, Senator George Mitchell, 
Senator Ted Kennedy, Congressman Richie Neal, and Congressman 
Peter King--to name just a few, who refused to give up on a 
deal when tensions became too high or certain groups walked 
away from the negotiating table. These representatives of the 
American people helped build a bridge over the dark chasms of 
mistrusts, providing an impartial ear to the concerns of all 
parties and provided an incubator where the Good Friday 
Agreement, sometimes called the ``Peace and Reconciliation 
Agreement'' could be born.
    This Good Friday Agreement, and subsequent agreements such 
as the St. Andrews Agreement in 2006, the Hillsborough 
Agreement in 2010, and the Stormont Agreement in 2014, was 
anchored on the fundamental principles of basic human dignity 
and rights that are the foundation of our own government. The 
goals of the Good Friday Agreement were meant to give the 
future back to the people of Northern Ireland unshackled from 
the legacy of the past. For the first time in a very long time, 
simple things, like everyday grocery shopping, worshipping on 
Sundays, or taking family outings on holidays could be 
conducted without fear or trepidation. And during the past 20 
years, a generation has grown up in Northern Ireland without 
knowing the fears and anxieties that constant violence inflicts 
upon communities.
    Further, we have come to learn that peace brings 
prosperity. The economy in Northern Ireland has made 
significant advances since the Troubles, and despite setbacks 
from the global recession, the North of Ireland has seen a 
growth in tourism, a growth in foreign direct investment, and a 
commitment to increasing the private sector. In fact, Northern 
Ireland's Gross Domestic Product has grown slightly in the four 
quarters ending in September 2017, and the unemployment rate is 
currently 3.9 percent, which is lower than the UK average at 
4.4 percent, the Irish average at 6.3 percent, and the EU 
average at 7.3 percent. \4\ Additionally, the gap in 
unemployment rates between members of the Catholic and 
Protestant community is near parity.
---------------------------------------------------------------------------
    \4\ Northern Ireland Statistics and Research Agency, Northern 
Ireland Labour Market Report, February 2018.
---------------------------------------------------------------------------
    So while we recognize that great strides have been made in 
the last 20 years in all sectors, final peace has not yet been 
achieved in Northern Ireland. We praise the efforts of Senator 
George Mitchell and other subsequent envoys of the United 
States to Northern Ireland, and we praise the work of all the 
politicians on the ground in Northern Ireland who made the Good 
Friday Agreement a reality. However, the Good Friday Agreement 
was merely the beginning of a process aimed at creating a fair 
and equitable society for all the communities of the North of 
Ireland.
    At an event just last week at the Library of Congress to 
commemorate the 20th anniversary of the Good Friday Agreement, 
in a pre-recorded message for attendees, President Clinton told 
the audience that there is still significant work to be done in 
the North of Ireland. He noted that the Good Friday Agreement 
is still not finished and he challenged all of us, ``seize this 
moment of memory to move into the future--together.'' \5\ As 
President Clinton pointed out, there are still ongoing hurdles 
in Northern Ireland. These challenges exist at every level of 
civil society and address basic issues such as dealing with the 
past with justice and respecting the history and culture of all 
communities with mutual respect and parity of esteem. These are 
difficult and tough discussions to be had, but these are 
conversations that must take place.
---------------------------------------------------------------------------
    \5\  Forum Marking the 20th Anniversary of the Good Friday 
Agreement (3/13/17)https://www.youtube.com/watch?v=VC-RlOteG1s)
---------------------------------------------------------------------------
    The Ancient Order of Hibernians agrees with President 
Clinton; we believe the time is now for the United States to 
recommit itself to the principles of the Good Friday Agreement. 
In fact, the AOH has repeatedly requested that this 
Administration fulfill its commitment to appoint a Special 
Envoy to Northern Ireland immediately. This is an extremely 
critical time for Northern Ireland, and as political parties 
continue to attempt to form a sustainable government while 
addressing the fears and anxieties of Brexit, we believe that 
America must reaffirm through the presence of a Special Envoy 
that the peace and well-being of the community of the North of 
Ireland is still a priority to the U.S., and America is willing 
to walk with the representatives of those communities on the 
road to a lasting peace.
    I believe that it is important to note that the Ancient 
Order of Hibernians in America has been and will be in the 
future, working for the unification of Ireland. The Preamble of 
our AOH Constitution States that the purpose of our 
Organization is to promote:

Friendship, Unity and Christian Charity: and to aid and advance 
by all legitimate means the aspirations and endeavors of the 
Irish people for complete and absolute independence providing 
peace and unity for all Ireland.

    That being said, we understand that this cannot be 
accomplished overnight and complete independence can only be 
achieved when a majority of people on both sides of the border 
wish it to happen.
    For over 30 years, the Ancient Order of Hibernians has been 
engaged with a variety of organizations in the North of 
Ireland, and poured hundreds of thousands of dollars into 
organizations that provide assistance for charities and 
agencies to aid and advance, by all legitimate means, the 
aspirations and endeavors of the Irish people. We in our own 
way continue on the efforts of successive U.S. envoys to bridge 
the gaps of ignorance and mistrust. Our donations sent to 
Northern Ireland each year go to cross-appeal organizations 
such as Holy Cross Trust of Ardoyne, Belfast, Omagh Community 
Youth Choir, St. Patrick's Centre, Downpatrick, and Conway Mill 
Trust Inc., just to name a few.
    Additionally, the AOH supports the promotion of the Irish 
language in Ireland, which has garnered much media attention as 
a cause, but not the only one, for the failure to restore the 
power sharing government in the North of Ireland. It is 
incredulous that anyone would have an objection to the Irish 
language being taught and used in Ireland. We note that acts 
supporting and promoting indigenous languages in other parts of 
the United Kingdom, specifically Scotland and Wales, have long 
been enacted. The Irish language is one of the ten oldest 
languages still spoken in the world today; it is a treasure 
that all communities of Ireland should be proud of. To those 
who ask if the study of language should be a barrier to forming 
a government, we respond that if something as benign as the 
promotion of the Irish language cannot be resolved, then what 
hope is there to address more contentious issues. We believe 
that these issues of identity should always be on the table for 
discussion and can be addressed better if an impartial 
outsider, like an American Envoy, chairs the discussions.
    Finally, one of the many other groups that we support 
monetarily on an annual basis is Relatives for Justice, which 
works for truth and justice for victims and survivors of 
victims during the Troubles. Utilizing a third party, in this 
case, the U.S. Envoy, to help address some of these ``legacy 
issues'' is critical to finding a path forward. For example, 
the Stormont Agreement was signed in 2014 and created agencies 
such as the IRG (The Implementation and Reconciliation Group), 
the OHA (Oral History Archive), the ICIR (The Independent 
Commission on Information Retrieval) and the HIU (Historical 
Investigative Unit). These agencies were created to address 
human rights violations of the past and to attempt to achieve 
some type of closure and justice when possible. Not all of 
these agencies have gone into full effect yet because although 
the Good Friday Agreement has been enabled, it has not been 
fully implemented. The AOH believes the many legacy issues 
should be handled with a third-party negotiator involved to 
give credibility to the impartiality and transparency of the 
process.
    In addition to addressing legacy issues, the people of 
Northern Ireland are now forced to deal with concerns 
surrounding Brexit and how Northern Ireland may be impacted. 
After the Good Friday Agreement was initially implemented in 
1998, not only was the ``hard border'' of military checkpoints 
and concertina wire demolished, but also the psychological 
borders that separated two people on a tiny island. All that 
was left was the memory of those trying days trying to get back 
and forth across the border. Today, the local people of 
Northern Ireland can cross the border multiple times in any 
given day--for work, for school, for shopping--for life.
    The dissolution of UK's membership in the European Union 
has once again raised the specter of a ``hard border'' in which 
all affected communities are in rare unanimity. Yet, no 
feasible, detailed means of avoiding a ``hard border'' have yet 
been identified. Much has been made of ``commitments'' and 
``desires'' to avoid a hard border, but the devil is in the 
details. To avoid the disastrous consequences of a hard border 
in Ireland, compromises will be needed by all parties. The AOH 
believes this is yet another excellent reason to appoint a 
Special Envoy to Northern Ireland who can impartially 
facilitate finding common ground and begin to exhibit trust in 
carving out the future.
    If the current demographics of Northern Ireland at 48 
percent Protestant and 45 percent Catholic continue, \6\ this 
trend would indicate a Catholic majority in five to 10 years, 
or perhaps even less. In attempting to obtain reconciliation 
and justice, these figures cannot be ignored. The majority of 
today can become the minority of tomorrow and the blanket of 
protections enacted today will equally cover those who may feel 
they do not need them today. There is no question that Senator 
Mitchell, who forged this Agreement 20 years ago, knew of these 
facts when he espoused them during his mediations in 1998, 
which is why it is so crucial to find an equitable path forward 
for all parties.
---------------------------------------------------------------------------
    \6\ ``Two tribes: A divided Northern Ireland,'' The Irish Times (4/
1/2017) (https://www.irishtimes.com/news/ireland/irish-news/two-tribes-
a-divided-northern-ireland-1.3030921)
---------------------------------------------------------------------------
    Certainly one of the most well respected members of 
government from the Nationalist side was Martin McGuinness. In 
fact, I don't think most people recognized his stature until 
after his death. What he believed in has been reduced by some 
of our Irish organizations in this country, the AOH included, 
to four basic principles: those of self-determination, respect, 
equality and truth.

(1) SELF-DETERMINATION

    A BORDER POLL TO AFFIRM IRISH SELF-DETERMINATION

    ``The imposition of Brexit, despite the vote of the people 
of the north to remain (in the European Union) underlines the 
undemocratic nature of partition . . . There is a democratic 
imperative to provide Irish citizens with the right to vote in 
a Border poll to end partition and retain a role in the EU.''

    ``A border poll is part of the process of building a modern 
and dynamic New Republic on this island--an agreed Ireland 
achieved by peaceful and democratic means.''

        ----Martin McGuinness.

(2) RESPECT

    FULL STATUTORY EQUALITY FOR THE IRISH LANGUAGE

    ``Successive British Governments . . . have totally failed 
to meet their obligations . . . to protect the rights of the 
Irish language community.''

        ----Martin McGuinness

(3) EQUALITY

    THE ENACTMENT OF A BILL OF RIGHTS

    ``We have pressed consistently for the establishment of a 
Bill of Rights in the North and an all-Ireland Charter of 
Rights.''

        ----Martin McGuinness
(4) TRUTH

    EQUAL JUSTICE FOR VICTIMS OF THE CONFLICT AND THEIR 
FAMILIES

    ``Dealing with the legacy of the past remains one of the 
key outstanding challenges of our peace process. Unless it is 
dealt with in a comprehensive manner then the essential process 
of healing and reconciliation cannot gain momentum.''

        ----Martin McGuinness

    The Ancient Order of Hibernians in America fully support 
these espoused principles and believe that they are in keeping 
with the best values of our organization, i.e., Truth, Respect, 
Equality, and Self-Determination. Only God knows the future for 
Ireland and we can only continue to do what we have done in the 
past, and that is to support the efforts and principles of the 
Good Friday Agreement and continue to spread the word to all 
who will listen of the achievements that have been made to 
date.

  Prepared Statement of Mark Thompson, Director, Relatives for Justice

    `Dealing with the past': including accountability for past 
abuses and collusion, the need of surviving family members for 
justice & closure, and reform of policing

    May I first take this opportunity to thank the Committee, 
Chairman Senator Wicker, and CoChair Congressman Smith, your 
staff, and all involved in facilitating and convening this 
hearing.
    Dealing with the past in which multiple harms and egregious 
human rights violations have occurred--not least systemic 
abuses that had official government sanction--is a perquisite 
of any post-conflict situation.
    Righting the wrongs of the past--truth seeking and 
accountability--are an imperative to individual and societal 
recovery and healing, the restoration of human dignity, and the 
promotion and protection of human rights. They are central to 
the correction and rebuilding of the institutions of governance 
post-conflict not least criminal justice agencies.
    No one community has a monopoly on the human heartache that 
was our conflict. We all suffered.
    However, in terms of accountable justice there exists a 
huge deficit for those affected by State violence and collusion 
and it is no coincidence they face innumerable barriers to 
justice--barriers erected by those who are charged with 
ensuring justice--those accused in the first instance of 
violation.
    There is huge and powerful resistance to enabling a process 
that addresses the past in an openly transparent, legally 
compliant, and above all independent way. This resistance 
emerges from within the police, the military, some 
institutions, political unionism, and the British government--
who are not neutral.
    They all seek to maintain a false narrative of the past and 
about their true role in the conflict. This position 
necessitates the denial of rights and ultimately accountable 
justice. Moreover, this position is unsustainable if there is 
to be meaningful change.

Families actively using the law & courts, asserting their 
rights, seeking accountability for past violations

    Two weeks ago in the Belfast High Court Justice Paul Girvan 
ruled that former First Minister Arlene Foster acted illegally 
and with improper political motive \1\ when she arbitrarily 
blocked attempts by the North's foremost legal representative 
the Lord Chief Justice (LCJ) Sir Declan Morgan, and the then 
Justice Minister David Ford, to secure funding for legacy 
inquests into 55 cases involving 97 killings; inquests where 
families have waited up to four decades to hear. \2\
---------------------------------------------------------------------------
    \1\ https://www.judiciary-ni.gov.uk/sites/judiciary-ni.gov.uk/
files/decisions/soj-In-re-Brigid-Hughes.pdf
http://relativesforjustice.com/inquest-funding-judicial-review/ 
http://relativesforjustice.com/4089
http://relativesforjustice.com/4089 
http://relativesforjustice.com/4089-2/ 
http://www.bbc.com/news/uk-northern-ireland-43330861
    \2\ http://www.bbc.com/news/uk-northern-ireland-0941165119
---------------------------------------------------------------------------
    At the same time in an adjoining courtroom Justice Bernard 
McCloskey finally recused himself from a hearing in which the 
former head of RUC special branch, Raymond White, challenged 
the Police Ombudsman's powers and findings into the 
Loughinisland massacre, which evidenced RUC collusion. \3\ 
Having delivered a scathing judgment against the Police 
Ombudsman it had been discovered that there was a lack of 
candour in disclosing to the court that as a lawyer Justice 
McCloskey had previously acted for the same applicants, White 
et al, when they unsuccessfully challenged the Police 
Ombudsman's report into the 1998 Omagh bomb in which Nuala 
O'Loan was highly critical of special branch. \4\ These 
criticisms included prior intelligence about the planned attack 
from an agent within the organisation responsible, which might 
well have prevented it. The McCloskey judgment was strikingly 
similar to his failed legal submission when acting for the 
former head of RUC special branch on that occasion. The case 
will be held afresh.
---------------------------------------------------------------------------
    \3\  https://relativesforjustice.com/mr-justice-bernard-mccloskey-
finally-leaves-the-building/
    \4\ https://www.irishtimes.com/news/ireland/irish-news/
loughinisland-families-welcome-judge-s-stepping-down-from-case-
1.3370081
https://www.irishnews.com/news/northernirelandnews/2018/01/26/news/
relatives-welcome-judge-s-move-over-loughinisland-massacre-challenge-
1242804/
https://www.belfasttelegraph.co.uk/news/northern-ireland/loughinisland-
drama-as-judge-told-to-withdraw-from-police-ombudsman-collusion-report-
case-36506937.html
---------------------------------------------------------------------------
    As a consequence the Police Ombudsman is unable to publish 
several major reports into killings involving collusion until 
the court case concludes. \5\ This rearguard action by the 
former head of special branch is also designed to stall and 
frustrate accountability. With appeals and challenges it may 
take several years to conclude which is time families don't 
have. The current Police Ombudsman, who has the confidence of 
families, has approximately 15 months left to serve.
---------------------------------------------------------------------------
    \5\ http://www.irishnews.com/news/northernirelandnews/2018/02/08/
relatives-call-for-ombudsman-reports-to-be-published-1251470/?ref=sh
https://relativesforjustice.com/ombudsman-forced-to-delay-publication-
of-collusion-reports/
---------------------------------------------------------------------------
    More recently in the same High Court the PSNI chief 
constable George Hamilton was found to be in contempt, not once 
but several times by Justice Ben Stephens, for refusing to 
provide disclosures in a civil case taken by John Flynn in 
respect to a series of murder bids on him by the notorious 
Mount Vernon UVF, in which multiple members of this sectarian 
and criminal gang worked for the special branch. \6\
---------------------------------------------------------------------------
    \6\ https://www.newsletter.co.uk/news/police-ordered-to-reveal-
files-in-loyalist-agent-collusion-case-1-7841475
https://rm.coe.int/168073e17d
https://www.belfasttelegraph.co.uk/news/northern-ireland/police-given-
fiveweek-extension-to-disclose-files-on-loyalist-informer-incollusion-
case-36516257.html
www.belfasttelegraph.co.uk/news/northern-ireland/judge-refuses-psnis-
high-court-appeal-for-disclosure-of-loyalist-informer-files-
36068766.html
---------------------------------------------------------------------------
    Police Ombudsman Nuala O'Loan's report Operation Ballast 
detailed the activities of this group. \7\
---------------------------------------------------------------------------
    \7\  https://policeombudsman.org/Investigation-Reports/Historical-
Reports/Operation-Ballast-investigation-into-the-circumsta
---------------------------------------------------------------------------
    The disclosures were relevant to establishing a quantum for 
damages in the case.
    At the same time in the adjacent criminal court families 
who had loved ones killed by the Mount Vernon gang observed as 
leading UVF figure Gary Haggarty was being sentenced for a 
series of criminal activities including murder. \8\ Haggarty, a 
special branch agent throughout his reign of terror, had become 
an assisting offender in 2009. \9\ As an assisting offender 
Haggarty spent seven years providing evidence on all his 
activities and accomplices including his special branch 
handlers who directed his activities, evidence which the court 
accepted as credible. Families accepted that Haggarty would get 
a reduced sentence as an assisting offender but this was 
mitigated somewhat in that they would also see his special 
branch handlers in the dock as well as his fellow loyalists as 
part of this process. None of this happened despite promises by 
the PSNI and Public Prosecution Service (PPS) throughout. The 
matter is now subject to judicial review by the McParland and 
Monaghan families. \10\
---------------------------------------------------------------------------
    \8\  http://www.irishnews.com/news/northernirelandnews/2018/01/30/
haggarty-victims-hit-out-as-loyalist-supergrass-has-35-year-jail-
termcut-to-six-and-half-1244832/?ref=sh
    \9\  http://www.bbc.com/news/uk-england-40379903
    \10\  http://www.bbc.com/news/uk-northern-ireland-42428270
---------------------------------------------------------------------------
    It is suspected that the reasoning behind the deliberate 
failure to disclose evidence in the Flynn case is to protect 
the same group of agent handlers within the special branch also 
involved with Haggarty--shielding them from prosecution.

Policing reform--certainly not when it comes to dealing with 
the past

    This brings into sharp focus the whole matter of the 
independence of the PSNI, where a cabal of former RUC officers 
who transferred over and now hold senior positions, including 
those who took the incentivised redundancy/retirement package 
to leave \11\ but who through a loophole returned as 
`consultants' and `civilian workers' and who now control 
legacy. \12\ Further in this `civilianised' capacity they are 
not subject to the oversight powers of the Police Ombudsman.
---------------------------------------------------------------------------
    \11\  http://www.thedetail.tv/articles/rehiring-in-the-police-the-
full-story
    \12\  http://www.bbc.com/news/uk-northern-ireland-16600069
---------------------------------------------------------------------------
    Taken together with the position of the PSNI moreover on 
legacy this has had a corrosive effect on nationalist 
confidence in policing, which is now, at an all time low.
    The 2009 offer to Haggarty it was revealed came--strangely 
or not--from MI5, the PSNI and the PPS. \13\ The blurring of 
boundaries and interference in due process, politically and 
from the intelligence agencies involved in the conflict and 
whose activities are highly questionable if not directly 
illegal, is nothing new. It was and continues to be wrong.
---------------------------------------------------------------------------
    \13\  Minutes of 21st January 2010 Policing Board meeting on file 
with RFJ & judgment in Haggarty case page 1, para 1; https://
www.judiciaryni.gov.uk/sites/judiciary-ni.gov.uk/files/decisions/
R%20v%20Haggarty%20%28Gary%29.pdf

---------------------------------------------------------------------------
Impunity

    The trial of British Army Force Research Unit (FRU) agent 
Brian Nelson in 1992 saw the then British Attorney General 
(AG), Patrick Mayhew, direct the prosecution case against him 
following interventions by the UK government in a bid to 
prevent Nelson from taking the witness stand and disclosing his 
full activities including murder. A deal was struck with Nelson 
and 20 counts were removed from the indictment including two 
for murder. \14\
---------------------------------------------------------------------------
    \14\  The North's shadow Labour spokesperson Kevin McNamara MP 
would later raise the matter in a parliamentary debate where he 
questioned the motives of that government intervention: ``I was not 
happy when the (British) Attorney-General took control of that 
prosecution and I was dubious about his reasons for deciding to drop 
charges. Those reasons remain undisclosed.'' https://
publications.parliament.uk/pa/cm200203/cmhansrd/vo030514/halltext/
30514h01.htm> Column 73WH
---------------------------------------------------------------------------
    In 1988 the same Attorney General told the British 
parliament that it would not be in the public interest to 
proceed with prosecutions against RUC officers, from a 
specialist unit known as E4A, involved in a series of shoot-to-
kill incidents of unarmed republicans. \15\
---------------------------------------------------------------------------
    \15\  http://hansard.millbanksystems.com/commons/1988/jan/25/royal-
ulster-constabulary-stalker
---------------------------------------------------------------------------
    The collusive activities of the FRU and RUC special branch 
were the subject of three major enquiries by the UK's most 
senior police officer, Sir John Stevens, from September 1989 to 
April 2003. His enquiries found collusion \16\ and he 
recommended that 25 members of the FRU and special branch be 
prosecuted. \17\ This was never acted upon. Sir John Stevens 
later told a British Parliamentary Committee that of the 210 
people he arrested during his enquiries--that is non-military 
and police--207 were agents working for the State. \18\
---------------------------------------------------------------------------
    \16\  http://relativesforjustice.com/wp-content/uploads/2016/11/
Stevens-3-Inquiry-Report.pdf
    \17\  Letter from PPS on file with RFJ & Stevens public statement 
re same
    \18\  https://www.youtube.com/watch?v=q9LFp95CCHo
---------------------------------------------------------------------------
    And so we see the pattern where accountability is thwarted 
and prevented when involving State killings, its agents 
operating inside illegal paramilitaries involved in murder, and 
those agent handlers directing and protecting them.
    It is about protecting British State conflict policies and 
practices of wrongdoing on a massive scale that uncovered would 
completely tilt the conflict narrative. It is about protecting 
the reputational damage this would inflict on the UK. It is all 
about where this leads to in London and importantly--to whom.

Moving the goal posts--British bad faith

    The pattern of insulating and protecting against such 
situations of exposure can also be seen across a range of 
institutions and proposed mechanisms. Take for example the 
agreement reached in December 2014 at Stormont House to address 
the legacy of the past. \19\ Post the agreement the UK 
government arbitrarily inserted a `national security' veto into 
draft legislation enabling the retention and non-disclosure of 
information in any case they deemed necessary. Charlie 
Flanagan, who as minister negotiated the agreement on behalf of 
the Irish government, described this as `a smothering blanket' 
that was `unacceptable'. \20\
---------------------------------------------------------------------------
    \19\  https://relativesforjustice.com/?s=stormont+house+agreement
    \20\ http://www.irishnews.com/news/2015/11/27/news/flanagan-
critical-of-national-security-smothering-blanket--334991/
---------------------------------------------------------------------------
    More recently in correspondence to RFJ the British 
Secretary of State for the North said that any consultation on 
the implementation of any proposed mechanism to address the 
past would also include a `statute of limitations' \21\ for 
British soldiers--an amnesty. This would be unacceptable.
---------------------------------------------------------------------------
    \21\  Letter on file with RFJ-- http://www.irishlegal.com/9509/
irish-government-criticises-uk-government-statute-of-limitations-plan/

---------------------------------------------------------------------------
The `lack of resources' excuse exposed

    One of the main arguments proffered for systemic delays in 
addressing legacy is a lack of resources and funding. This has 
dramatically impacted the office of the Police Ombudsman and 
the inquest courts with budgetary cuts despite the increasing 
caseload. \22\ It is no coincidence that these also happen to 
be the only functioning mechanisms that have the potential to 
deliver for families. Now their capacity is hampered. By 
contrast the PSNI and other agencies have paid out tens of 
millions of pounds in a range of civil cases in order to forgo 
having to disclose information about collusion. \23\
---------------------------------------------------------------------------
    \22\  Police Ombudsman caseload is currently 420 cases where police 
misconduct in investigations and possible collusion exists
    \23\  https://www.theguardian.com/uk/2008/oct/24/danny-morrison-
northern-ireland; http://republican-news.org/current/news/2012/09/
britain--admits--miscarriage--of.html
---------------------------------------------------------------------------
    It is in this overall context that resistance by the UK, 
supported by political unionism, to addressing the legacy of 
the past in a meaningful, constructive, independent and legally 
compliant way must be viewed.

Families using the international courts to assert their rights

    As a signatory of the European Convention on Human Rights 
\24\ (ECHR) the UK are legally obligated to conduct thorough 
and independent investigations in accordance with Article 2 of 
the Convention, the Right to life. Under the Convention States 
must take measures where life is potentially under threat 
ensuring safety, and where life is taken then they must ensure 
investigation meets the above standards.
---------------------------------------------------------------------------
    \24\  https://www.echr.coe.int/Documents/Convention--ENG.pdf
---------------------------------------------------------------------------
    In truth the UK, through its `security' and intelligence 
agencies, issued threats to citizens, denied them protection, 
and assisted in every conceivable way those they then sent to 
kill them. That is the conclusions of the Stevens Enquiries, 
the De Silva Review and the Police Ombudsman. It is why former 
UK Prime Minister David Cameron apologised to the Finucane 
family.
    In short Article 2 must govern and be at the heart of any 
future mechanism to address the past.
    This legal obligation--it would appear--has proven hugely 
problematic for the UK authorities--hence the `national 
security' veto, the proposed statute of limitations, and 
general circling of the wagons. And we know precisely why.
    This is best illustrated in the powerful European body the 
Committee of Ministers to the Council of Europe (CoM/CoE).
    Following the May 2001 European Court on Human Rights 
ruling in the McKerr \25\ group of cases, where the UK domestic 
investigative procedures were unanimously found to have been 
deliberately prohibitive to establishing the facts and holding 
to account the perpetrators in respect to State killings 
including collusion, the Court passed the judgment to the CoM/
CoE for supervision.
---------------------------------------------------------------------------
    \25\  https://search.coe.int/cm/Pages/result--
details.aspx?ObjectID=09000016805c212a
---------------------------------------------------------------------------
    The role of CoM/CoE is to assist the offending State to 
remedy the violations by way of ensuring that proper 
investigative procedures, legally compliant with the 
Convention, are put in place. \26\
---------------------------------------------------------------------------
    \26\  http://www.europewatchdog.info/en/structure/committee-of-
ministers/supervision-execution-judgments/
---------------------------------------------------------------------------
    Since May 2001 the CoM/CoE has refused to sign off on their 
supervision of the UK having not been satisfied that the UK, 
through its action-plans, has fulfilled its legal obligations. 
That is 17 years.
    This is testament to what the families face on one level 
but they also take hope in this vindication of their rights by 
the CoM/CoE.

The need for surviving family members for justice enabling them 
to move forward

    Families want truth, the right to know who precisely were 
behind the murders of their loved ones--the recovery of 
historic memory.
    It is not acceptable that the State, rather than meet its 
legal obligations to investigate, would prefer to first deny 
the truth, then when evidence is revealed delay processes to 
secure justice and accountability all in the hope that 
relatives might simply die off--which is happening. But other 
relatives are picking up the baton, continuing the fight, newer 
generations, and so families will never give up.
    As I said at the outset accountability for human rights 
violation is central to healing and recovery; it enables the 
victim to recover that sense of disempowerment often associated 
with a wrong committed--righting that wrong is therefore 
ethically, morally and above all legally imperative not least 
when the finger--the evidential trail--points and leads 
directly to those in power--the police, military and 
government--who carry the duty to protect and prevent 
wrongdoing but who instead engaged in the practice of murder 
and cover-up.
    In such situations the necessity to ensure justice and 
accountability is, arguably, all the more.
    Implicit in this testimony--there has been no police reform 
when it comes to dealing with the past--only obfuscation--only 
Perfidious Alboin.
    Implicit--families are actively to the fore in public 
discourse, engaged in litigation and other forums seeking truth 
and accountability for past violations--having to consistently 
challenge a State standing in their way.
    This work by families is about historic clarification, the 
dignity of truth, and healing.
    The families we are humbled to work with--the families 
engaged in all this work--are the real heroes of the Irish 
peace process.
    Finally I want to put on record the crucially important 
international forum these hearings provide to families and 
NGO's engaged in the promotion and protection of human rights.
    These hearings, even 20 years after the peace accord, are 
necessary in assisting and encouraging a rights based approach 
within the context of our still developing peace process.
    A lot has been achieved but the reality is we are not there 
yet. Your influence, vigilance and scrutiny therefore have real 
meaning and impact in the work still to be completed.
    In particular I want to acknowledge Congressman Smith for 
his consistent and dedicated work over two decades in seeking 
to consolidate and build upon the peace process.
    Thank you--Go raibh maith agaibh

                Prepared Statement of Geraldine Finucane

  The Good Friday Agreement 1998: Unfinished Business and the Public 
                Inquiry Into the Murder of Pat Finucane

Thursday, 22 March 2018

Mr. Chairman, Members of the Committee, Fellow Speakers, 
Honoured Guests, Ladies and Gentlemen . . .
    On behalf of my entire family, I would like to thank you 
for this invitation to speak today and to testify before this 
Commission. I would especially like to thank the Chairman, Mr. 
Smith, for his continued interest in the case of Patrick 
Finucane, my husband, in particular, and the issue of human 
rights in Northern Ireland in general. As many people will 
know, Mr. Smith has been a keen supporter of, and advocate for, 
the development and enhancement of human rights in Northern 
Ireland throughout the peace process. His work and that of the 
US Congress in general has proved invaluable to the people of 
Ireland in maintaining and developing our peace initiative. I 
think the topic we are discussing is one of the most important 
aspects of the peace process in Ireland, namely, how we 
approach our past, how we deal with it and how we move beyond 
it, without forgetting it or worse still, pretending it did not 
happen.
    I am particularly honoured to be able to address you in 
this 20th anniversary year since the signing of the Belfast 
Agreement on Good Friday, 10th April 1998. This momentous event 
took place some 10 years after the murder of my husband, Pat 
Finucane, a solicitor who practiced law in Belfast in the law 
firm he co-founded with his friend and business partner, Peter 
Madden. Pat was murdered by Loyalist paramilitaries, in our 
home, on Sunday, 12 February 1989, in front of myself and our 
three children.
    I would like to say that the passing of the years has made 
Pat's death easier to bear but his would not be true. In fact, 
the more time that passes, the more difficult it is to bear his 
loss. This is partly because of how much we all miss him as a 
person but it is also because of what we now know about the 
circumstances surrounding his murder. We know, beyond any 
doubt, that Pat was murdered with the active assistance and 
participation of the former NI police force, the RUC, the 
British Army and the British State.
    There was a time when we did not know as much as we do now 
and the claim that Britain was involved produced scepticism in 
many quarters. Politicians in government and officials in State 
positions at home and abroad disbelieved our suspicions 
entirely. Some even poured scorn on our allegations of State 
collusion and said the ideas were fanciful. Pat's case was 
merely one more killing in the midst of so many. One more case 
to be archived and forgotten. However, Pat's case was not 
forgotten, nor were the very many others. The 1998 Agreement 
represented a new beginning that would mark a point from which 
the new future for everyone in Ireland, north and south, could 
be launched. What was not appreciated or acknowledged, however, 
was the fact that moving forward also meant dealing with the 
past. In this respect, the greatest number of difficulties have 
been encountered by people like me who seek to hold the British 
State to account for its actions during the conflict period.
    My family has campaigned for a public inquiry into Pat's 
murder but the British Government has repeatedly failed to 
establish one. Instead, they have instigated one confined 
investigation after another, claiming to want to `examine the 
facts' or `get to the truth' but always in a process conducted 
away from public view.
    One cannot but wonder at the pointlessness of conducting 
investigation after investigation that are doomed to fail, no 
matter how forceful the conclusions, because they lack the 
transparency required to attain public confidence.
    For example, in April 2003, the newly appointed 
Commissioner of the London Metropolitan Police, John Stevens, 
announced the findings of his investigation with the following 
remarks:

``My enquiries have highlighted collusion, the wilful failure 
to keep records, the absence of accountability, the withholding 
of intelligence and evidence, and the extreme of agents being 
involved in murder. These serious acts and omissions have meant 
that people have been killed or seriously injured.''

    One year after this, in April 2004, the former Canadian 
Supreme Court Judge, Peter Cory, announced the findings of his 
investigation. The concluding paragraph of his report reads as 
follows:

``Some of the acts summarized . . . are, in and of themselves, 
capable of constituting acts of collusion. Further, the 
documents and Statements I have referred to in this review have 
a cumulative effect. Considered together, they clearly indicate 
to me that there is strong evidence that collusive acts were 
committed by the Army (FRU), the RUC SB and the Security 
Service. I am satisfied that there is a need for a public 
inquiry.''

    In December 2012, the Prime Minister, David Cameron, 
addressed the House of Commons with a speech on the findings of 
a report by Sir Desmond de Silva, a barrister tasked with 
conducting a review of State papers dealing with collusion. Mr. 
Cameron's conclude his speech with the following remarks:

``The collusion demonstrated beyond any doubt . . . , which 
included the involvement of State agencies in murder, is 
totally unacceptable. We do not defend our security forces, . . 
. by trying to claim otherwise. Collusion should never, ever 
happen. So on behalf of the Government, and the whole country, 
let me say again to the Finucane family, I am deeply sorry.''

    This outcome took 11 years and four visits to Downing 
Street to meet two different Prime Ministers. This is all too 
typical of the response by Britain to accusations of collusion, 
namely, to deny as long as possible and then, ultimately, to 
hide as much as possible.
    It has been clear to many people for many years that the 
legacy of conflict would have to be addressed. The Good Friday 
Agreement represents a step in the journey toward achieving the 
goal of creating a peaceful society that has been permanently 
transformed. However, it is a means to an end, not an end in 
itself. It is supposed to represent a break from the methods of 
the past that undermine public confidence in government and the 
rule of law. Many questions remain about the murder of Pat 
Finucane. Many questions remain unanswered about the murders of 
many other people.
    Rather than participating in a public inquiry process, as 
the British Government once promised us, my family has been 
forced to take legal action to force the State to fulfil its 
obligations.
    The first stage of this process took place in the High 
Court in Belfast and was heard by Mr. Justice Ben Stephens, who 
delivered his ruling on 26 June 2015. In the opening paragraphs 
of his judgment, he said the following:

``[Geraldine Finucane] . . . was convinced from the beginning 
that servants or agents of the State were involved in the 
murder of her husband. The government has accepted that there 
was State involvement and has apologised for it. It is hard to 
express in forceful enough terms the appropriate response to 
the murder, the collusion associated with it, the failure to 
prevent the murder and the obstruction of some of the 
investigations into it. Individually and collectively they were 
abominations, which amounted to the most conspicuously bad, 
glaring and flagrant breach of the obligation of the State to 
protect the life of its citizen and to ensure the rule of law. 
There is and can be no attempt at justification.''

    Sadly, Mr. Justice Stephens concluded that the decision of 
the British Government not to hold a public inquiry was not 
unlawful and so he was unable to order them to establish such 
an inquiry. I appealed this decision to a higher court but the 
Northern Ireland Court of Appeal ruled against us. However, 
notwithstanding the fact that we were unsuccessful but we have 
sought and been granted permission to appeal to the UK Supreme 
Court. The hearing is scheduled for June 2018.
    Where, then, does the case for a public inquiry into the 
murder of Pat Finucane rest? The courts have concluded that 
they cannot order an inquiry. The British Government has 
determined it will not hold one.

Perhaps all that can be done has been done already . . . ?

Perhaps the murder of Pat Finucane is simply, `old news' . . . 
?

    I do not think that the controversy surrounding the murder 
of Pat Finucane has been properly resolved. I believe I am 
right in this, not just because of a broken promise by the 
British Government but because of the unanswered questions that 
arise from Pat's murder and the fact that no-one within the 
British establishment has ever been made accountable for it.
    Most of all, I believe I am right because of the unwavering 
support my family and I have had from the people of Belfast and 
beyond for the last twenty-nine years.
    Many people have stood with us for all of those three 
decades, helping us, encouraging us, willing us on. I meet them 
often, sometimes at organised events or just when I am out and 
about my daily business. I am constantly approached by people 
who wish me and my family well. They tell me we are doing great 
work. Some people even tell me that they have known tragedy in 
their lives but were unable to follow through on it, for 
various reasons. But they gain comfort and some degree of 
closure by knowing that someone is holding the British State 
accountable for their actions.

    But everyone ends by telling me the same thing: ``Keep 
going. It's important.''

    This is why my family and I do what we do. This is why we 
keep going even though it isn't easy. It is also why many 
people keep searching for the truth behind the killing of their 
relatives and friends, despite the resistance they encounter 
from Britain and its government. The constant reply from the 
State is that there can be no investigations and that we should 
look to the future because that is what is important. However, 
what the British Government cannot or will not acknowledge is 
that until we know everything about our past then we cannot 
possibly equip ourselves to build a solid future.
    It is true that the recent past in Northern Ireland was 
characterised and marred by violence. But it was also marred by 
a lack of transparency in government, the absence of proper 
accountability and the serial abuse by the State of our human 
rights. The violence may have ceased but it is hard to 
acknowledge improvement in other aspects until the State 
demonstrates change in a real way. One way of demonstrating 
that the change is real would be to establish a public inquiry 
into the murder of Pat Finucane.
    There are so many people, who, like us, want to find out 
the truth behind Pat's murder. It is unfinished business for 
them. It is unfinished business for us.

    We want to know, why. We want to know, how. We want to 
know, who.

    We want to ask our own questions and to hear the answers 
for ourselves. We want to be able to read the documents and 
understand the frameworks.
    Most of all, we want to be able to show them to the entire 
world so that everyone can know and learn what can be done by 
governments in the name of the people if we are not vigilant.
    The British Government likes to describe those of us who 
demand answers as people who are stuck in the past and who lack 
an understanding of democracy. On the contrary: I believe those 
who are committed to holding the State to account for past 
actions understand democracy the best of all.
    Thank you very much.

                                 [all]



















  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

                  * * *

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

                * * *


All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

                * * *


http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
